<html>
<title> - EDUCATING OUR EDUCATORS: HOW FEDERAL POLICY CAN BETTER SUPPORT TEACHERS AND SCHOOL LEADERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                        EDUCATING OUR EDUCATORS:
                         HOW FEDERAL POLICY CAN
                        BETTER SUPPORT TEACHERS
                           AND SCHOOL LEADERS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                                AND THE

                    SUBCOMMITTEE ON HIGHER EDUCATION
                        AND WORKFORCE INVESTMENT

                                 OF THE

                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 17, 2019

                               __________

                           Serial No. 116-36

                               __________

      Printed for the use of the Committee on Education and Labor
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


         Available via the World Wide Web: www.govinfo.gov; or
              Committee address: https://edlabor.house.gov
              
                               __________


                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-330 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------              
              
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Lloyd Smucker, Pennsylvania
Donald Norcross, New Jersey          Jim Banks, Indiana
Pramila Jayapal, Washington          Mark Walker, North Carolina
Joseph D. Morelle, New York          James Comer, Kentucky
Susan Wild, Pennsylvania             Ben Cline, Virginia
Josh Harder, California              Russ Fulcher, Idaho
Lucy McBath, Georgia                 Van Taylor, Texas
Kim Schrier, Washington              Steve Watkins, Kansas
Lauren Underwood, Illinois           Ron Wright, Texas
Jahana Hayes, Connecticut            Daniel Meuser, Pennsylvania
Donna E. Shalala, Florida            William R. Timmons, IV, South 
Andy Levin, Michigan*                    Carolina
Ilhan Omar, Minnesota                Dusty Johnson, South Dakota
David J. Trone, Maryland             Fred Keller, Pennsylvania
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 ------                                

   SUBCOMMITTEE EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

   GREGORIO KILILI CAMACHO SABLAN, Northern Mariana Islands, Chairman

Kim Schrier, Washington              Rick W. Allen, Georgia,
Jahana Hayes, Connecticut              Ranking Member
Donna E. Shalala, Florida            Glenn ``GT'' Thompson, 
Susan A. Davis, California               Pennsylvania
Frederica S. Wilson, Florida         Glenn Grothman, Wisconsin
Mark DeSaulnier, California          Van Taylor, Texas
Joseph D. Morelle, New York          William R. Timmons, IV, South 
                                         Carolina
       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE INVESTMENT

                 SUSAN A. DAVIS, California, Chairwoman


Joe Courtney, Connecticut            Lloyd Smucker, Pennsylvania,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Brett Guthrie, Kentucky
Josh Harder, California              Glenn Grothman, Wisconsin
Andy Levin, Michigan                 Elise Stefanik, New York
Ilhan Omar, Minnesota                Jim Banks, Indiana
David Trone, Maryland                Mark Walker, North Carolina
Susie Lee, Nevada                    James Comer, Kentucky
Lori Trahan, Massachusetts           Ben Cline, Virginia
Joaquin Castro, Texas                Russ Fulcher, Idaho
Raul M. Grijalva, Arizona            Steve C. Watkins, Jr., Kansas
Gregorio Kilili Camacho Sablan,      Dan Meuser, Pennsylvania
  Northern Mariana Islands           William R. Timmons, IV, South 
Suzanne Bonamici, Oregon                 Carolina
Alma S. Adams, North Carolina
Donald Norcross, New Jersey
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 17, 2019....................................     1

Statement of Members:
    Allen, Hon. Rick W., Ranking Member, Subcommittee Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     4
    Davis, Hon. Susan A., Chairwoman, Subcommittee on Higher 
      Education and Workforce Investment.........................     4
        Prepared statement of....................................     6
    Sablan, Hon. Gregorio Kilili Camacho, Chairman, Subcommittee 
      Early Childhood, Elementary, and Secondary Education.......     1
        Prepared statement of....................................     3
    Smucker, Hon. Lloyd, Ranking Member, Subcommittee on Higher 
      Education and Workforce Investment.........................     6
        Prepared statement of....................................     7

Statement of Witnesses:
    Brosnan, Michael, Teacher and Early Leadership Institute 
      Coach, Bridgeport Public Schools, Milford, CT..............     9
        Prepared statement of....................................    11
    Daire, Dr. Andrew, School of Education, Virginia 
      Commonwealth, University, Richmond, VA.....................    35
        Prepared statement of....................................    37
    McManus, Ms. Tricia, Assistant Superintendent for Leadership, 
      Professional Development, and School Transformation, 
      Hillsaborough County Public Schools, Tampa, FL.............    14
        Prepared statement of....................................    17
    White, Mr. John, State Superintendent of Education, State of 
      Louisiana, Baton Rouge, LA.................................    26
        Prepared statement of....................................    29

Additional Submissions:
    Chairwoman Davis:
        Link: Principal Pipelines................................    84
    Chairman Sablan:
        Prepared statement from National Association of Secondary 
          School Principals (NASSP)..............................    86
        Article: The Freedom Teach...............................    90
    Questions submitted for the record by:
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia 

    Responses to questions submitted for the record by:
        Mr. Brosnan..............................................    96
        Dr. Daire................................................    93

 
                        EDUCATING OUR EDUCATORS:
                         HOW FEDERAL POLICY CAN
                        BETTER SUPPORT TEACHERS
                           AND SCHOOL LEADERS

                              ----------                              


                        Wednesday, July 17, 2019

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

                               Joint with

                    Subcommittee on Higher Education

                       and Workforce Investment,

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 10:14 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Gregorio Kilili 
Camacho Sablan (Chairman of the Subcommittee on Early 
Childhood, Elementary and Secondary Education) presiding.
    Present: Representatives Sablan, Davis, Courtney, Wilson, 
Bonamici, Takano, Adams, DeSaulnier, Norcross, Jayapal, 
Morelle, Harder, Schrier, Hayes, Shalala, Levin, Omar, Trone, 
Lee, Trahan, Castro, Allen, Smucker, Thompson, Guthrie, 
Grothman, Stefanik, Banks, Walker, Comer, Cline, Watkins, 
Meuser, and Timmons.
    Also Present: Representatives Scott and Foxx.
    Staff Present: Tylease Alli, Chief Clerk; Katie Berger, 
Professional Staff; Christian Haines, General Counsel; Ariel 
Jona, Staff Assistant; Stephanie Lalle, Deputy Communications 
Director; Andre Lindsay, Staff Assistant; Jaria Martin, Clerk/
Assistant to the Staff Director; Max Moore, Office Aide; Jacque 
Mosely, Director of Education Policy; Lakeisha Steele, 
Professional Staff; Loredana Valtierra, Education Policy 
Fellow; Banyon Vassar, Deputy Director of Information 
Technology; Rolie Adrienne Webb, Education Policy Fellow; Cyrus 
Artz, Minority Parliamentarian; Courtney Butcher, Minority 
Director of Member Services and Coalitions; Bridget Handy, 
Minority Communications Assistant; Dean Johnson, Minority Staff 
Assistant; Hannah Matesic, Minority Director of Operations; 
Carlton Norwood, Minority Press Secretary; Brandon Renz, 
Minority Staff Director; Alex Ricci, Minority Professional 
Staff Member; Chance Russell, Minority Legislative Assistant; 
Mandy Schaumburg, Minority Chief Counsel and Deputy Director of 
Education Policy; and Brad Thomas, Minority Senior Education 
Policy Advisor.
    Chairman Sablan. The Committee on Early Childhood, 
Elementary and Secondary Education and Higher Education and 
Workforce Investment will come to order.
    Good morning, and welcome, everyone. I note that a quorum 
is present.
    Both subcommittees are meeting today in a legislative 
hearing to hear testimony on educating our educators, how 
Federal policy can better support teachers and school leaders.
    So pursuant to Committee Rule 7(c), opening statements are 
limited to the Chair's and the Ranking Members. This allows us 
to hear from our witnesses sooner and provides all Members with 
adequate time to ask questions. So I recognize myself now for 
the purpose of making an opening statement.
    So, today, we are looking at the Federal Government's 
responsibility to make sure America's children have the 
teachers they need. We can all agree that every child in the 
United States from the Marianas to Maine deserve quality 
instructions from quality teachers. Unfortunately, for our 
children, we know that far too many of their most qualified 
teachers are leaving the profession.
    This departure suffers serious impact on the quality of 
education, especially the education of children from low-income 
families and especially for children of color. The Learning 
Policy Institute reports teacher turnover rates are 50 percent 
higher in Title 1 schools which serve low-income children than 
in non-Title 1 schools. Mathematics and science teachers 
turnover, in particular, is nearly 70 percent greater than in 
Title 1 schools.
    Children of color are, likewise, disproportionately 
impacted. Turnover rates are 70 percent higher for teachers in 
schools serving the largest concentrations of children of 
color. Furthermore, teachers of these schools often have fewer 
years of experience and are often significantly less well 
trained.
    So as a Nation, we really must do better. We have to 
understand how we can train teachers better and to understand 
what forces teachers to leave their profession, because our 
children's education is at stake.
    We do have some research explaining teacher turnover rates. 
It shows that teachers are pushed out of their profession 
because they are not well enough prepared to begin with because 
school systems do not support teachers as they should and 
because teachers are underpaid.
    Insufficient preparation and weak support systems are areas 
where there may be a Federal role. So in the last Congress, 
committee Democrats introduced the Aim Higher Act, a 
comprehensive reauthorization of Federal higher education 
policy. One goal of the Act is to strengthen programs for 
teachers. Specifically, the Act requires identification of 
those preparation programs that are not producing the teachers 
who do not stick with the profession and provides technical 
assistance to fix those problems. The Act also prepares those 
who will later support other teachers within their schools by 
including leadership development as part of any teachers 
training.
    And I am sure there is more we could do, which is why I 
welcome today's witnesses, all teachers themselves, for joining 
us today to share their perspective on these issues.
    My two youngest are themselves public school teachers, and 
I never stop listening. Sometimes I ignore listening to them. 
That is all they talk about when they have nothing else to say.
    So now I yield to the distinguished chair of the 
Subcommittee on Higher Education and Workforce Investment 
hearing, Congresswoman Davis, for her opening statement.
    Okay. I take it back.
    I now yield to the Ranking Rember of the subcommittee, Mr. 
Allen, for his opening statements. I apologize.
    [The statement of Chairman Sablan follows:]

 Prepared Statement of Hon. Gregorio Kilili Camacho Sablan, Chairman, 
   Subcommittee Early Childhood, Elementary, and Secondary Education

    Today, we are looking at the federal government's responsibility to 
make sure America's children have the teachers they need.
    We can all agree that every child in the United States--from the 
Marianas to Maine--deserves quality instruction from quality teachers.
    Unfortunately for our children, we know that far too many of their 
most qualified teachers are leaving the profession.
    These departures have a serious impact on the quality of education, 
especially the education of children from low- income families, and 
especially for children of color.
    The Learning Policy Institute reports teacher turnover rates are 50 
percent higher in Title I schools, which serve low-income children, 
than in non-Title I schools. Mathematics and science teacher turnover 
is nearly 70 percent greater in Title I schools.
    Children of color are likewise disproportionately impacted. 
Turnover rates are 70 percent higher for teachers in schools serving 
the largest concentrations of children of color. Furthermore, teachers 
at these schools often have fewer years of experience and are, often, 
significantly less prepared.
    As a nation, we must do better.
    We have to understand how we can train teachers better and to 
understand what forces teachers to leave their profession. Because our 
children's education is at stake.
    We do have some research explaining teacher turnover rates. It 
shows that teachers are pushed out of their profession because they are 
not well prepared, because school systems do not support teachers as 
they should, and because teachers are underpaid.
    Insufficient preparation and weak support systems are areas where 
there may be a federal role. That is why in the last Congress, 
Committee Democrats introduced the Aim Higher Act--a comprehensive 
reauthorization of federal higher education policy. One goal of the Act 
is to strengthen preparation programs for teachers.
    I am sure there is more we can do.
    Which is why I welcome today's witnesses, all educators themselves, 
for joining us today to share their perspective on these issues.
                                 ______
                                 
    Mr. Allen. That is no problem. Where I come from, it is 
always ladies first, but I will do my thing here.
    And thank you for yielding, Mr. Chairman, and holding this 
hearing today.
    I am the son of two educators and, of course, our dinner 
conversations were typically about education. And I just wish 
that the problems we had then are the only problems we have 
now. It is quite a big difference, but I know firsthand how 
important it is for K-12 teachers and school leaders to have 
the tools they need to succeed. When educators are well-
prepared and able to meet the growing demands of our 
classrooms, children are better able to learn and thrive.
    Unfortunately, the current system is failing to provide the 
K-12 education system with an adequate number of teachers 
equipped to meet the challenges of modern classrooms. In 
addition, communities around the country are facing teacher 
shortages, particularly in rural areas and hard-to-staff areas, 
such as special education, English learners, science, 
technology, engineering, and math and STEM subjects.
    Ultimately, we can only expect our students to be as 
successful as the teachers and school leaders who educate them. 
The K-12 educator pipeline needs attention and reform in our 
schools if our schools are going to flourish. Most importantly, 
I believe that the Federal Government needs to get out of the 
classroom, needs to allow our teachers to do what they are 
called to do, and that is to teach and not deal with all of 
this regulatory compliance requirement.
    Today's discussion will provide incredibly valuable insight 
as we work to improve the educator pipeline. I want to thank 
our witnesses here today and to the educators in this country 
who dedicate their lives to helping America's children learn 
and succeed.
    My sixth grade teacher, Ms. Ward, changed my life, and I 
went from a C student to an A student because of Ms. Ward. So I 
owe her a great debt of gratitude, as I would assume most 
everybody in this body had some similar experience in their 
time in school.
    And with that, I yield back.
    [The statement of Mr. Allen follows:]

Prepared Statement of Hon. Rick W. Allen, Ranking Member, Subcommittee 
          Early Childhood, Elementary, and Secondary Education

    As the son of two educators, our dinner table conversations were 
typically about education. So I know firsthand how important it is for 
K-12 teachers and school leaders to have the tools they need to 
succeed. When educators are well-prepared and able to meet the growing 
demands of our classrooms, children are better able to learn and 
thrive.
    Unfortunately, the current system is failing to provide the K-12 
education system with an adequate number of educators equipped to meet 
the challenges of modern classrooms. In addition, communities around 
the country are facing teacher shortages, particularly in rural areas 
and hard-to staff areas such as special education, English learners, 
and science, technology, engineering, and math (STEM) subjects.
    Ultimately, we can only expect our students to be as successful as 
the teachers and school leaders who educate them. The K-12 educator 
pipeline needs attention and reform if our schools are going to 
flourish. Most importantly, I believe the federal government needs to 
get out of the classroom and let teachers do what they are called to 
do: teach. Today's discussion will provide incredibly valuable insight 
as we work to improve the educator pipeline. Thank you to our witnesses 
here today and to the educators in this country who dedicate their 
lives to helping America's children learn and succeed.
    I yield back.
                                 ______
                                 
    Chairman Sablan. Thank you very much, Mr. Allen.
    And so now I recognize the distinguished chairwoman of the 
Higher Education and Workforce Investment Subcommittee, Mrs. 
Davis, for the purpose of her making an opening statement.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chair, and thank you, Ranking Member Allen, 
for yielding as well.
    I am pleased that we are having today's hearing on how to 
best support our educators and provide our children with high-
quality classroom and school instruction.
    So, today, we are not only discussing the need to invest in 
teacher preparation, but also the need to invest in school 
leader preparation. In fact, studies show that effective school 
leadership is one of the most consistent factors behind 
teachers' decisions to stay or leave a school or the profession 
entirely. Teachers who feel unsupported by their school leaders 
are nearly twice as likely to leave, and at the same time, we 
know that effective school leadership significantly improves 
teacher academic performance, particularly in reading and math.
    So despite the clear benefits of strong school leadership 
for both teachers and students, school leader preparation 
receives little attention compared to teacher preparation, and 
that is why our Aim Higher Act last Congress expanded key 
teacher preparation grants to include proven school leader 
preparation programs that provide participants with graduate-
level coursework, as well as ongoing support while on the job, 
that we know is critically important.
    We also know that professional training for teachers and 
school leaders can only go so far without support to help 
educators overcome the significant cost barriers through 
entering and staying in the profession. Today, the gap between 
teacher wages and the wages of other college graduates is wider 
than it has ever been.
    One recent study found that teachers with as much as 10 
years of experience and who are their family's breadwinners may 
need Federal financial support, and this gap is particularly 
devastating for teachers of color who already shoulder 
disproportionately more student debt than their White peers. As 
a result, our teacher workforce lacks diversity, which research 
shows can hurt students' academic outcomes.
    For decades, Congress has recognized its responsibility to 
eliminate cost barriers to serving as a teacher, particularly 
regarding student loans, and today, qualified teachers can 
receive Federal student loan relief through public service loan 
forgiveness for teaching in low-income schools and for teaching 
in the special education and STEM fields.
    But nevertheless, despite that continued financial barriers 
to becoming a teacher, we just have to do more. As this 
committee works to reauthorize the Higher Education Act, we 
must consider the provisions included in the Aim Higher Act to 
make college more affordable and student debt easier to repay 
for our educators. These provisions include streamlining 
student loan repayment and expanding the loan forgiveness 
program to ensure that educators and other public servants are 
not burdened by debt.
    Each day, we rely on teachers and school administrators to 
shape the future of our country. So if we are to provide our 
children with the best education possible, we must ensure that 
educators do not face overbearing cost barriers and inadequate 
preparation that prevent them from doing what they do best: 
empowering our children to reach their full potential.
    I want to thank our witnesses here today. We look forward 
to your comments. We look forward to hearing your expertise and 
your insight into all of these issues.
    I now yield to the Ranking Member of the Subcommittee on 
Higher Education and Workforce Investment, Mr. Smucker, to make 
an opening statement.
    [The statement of Mrs. Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Chairwoman, Subcommittee on 
               Higher Education and Workforce Investment

    Thank you, Ranking Member Allen, for yielding. I am pleased that we 
are having today's hearing on how to best support our educators and 
provide our children with high-quality classroom and school 
instruction.
    Today, we are not only discussing the need to invest in teacher 
preparation, but also the need to invest in school leader preparation.
    In fact, studies show that effective school leadership is one of 
the most consistent factors behind teachers' decisions to stay or leave 
a school, or the profession entirely. Teachers who feel unsupported by 
their school leaders are nearly twice as likely to leave. At the same 
time, we know that effective school leadership significantly improves 
students' academic performance, particularly in reading and math. 
Despite the clear benefits of strong school leadership for both 
teachers and students, school leader preparation receives little 
attention compared to teacher preparation.
    That is why our Aim Higher Act last Congress expanded key teacher 
preparation grants to include proven school leader preparation programs 
that provide participants with graduate-level coursework as well as 
ongoing supports while on the job.
    But we also know that professional training for teachers and school 
leaders can only go so far without support to help educators overcome 
the significant cost barriers to entering and staying in the 
profession.
    Today, the gap between teacher wages and the wages of other college 
graduates is wider than it's ever been. One recent study found that 
teachers with as much as 10 years of experience and who are their 
family's breadwinners may need federal financial support. This gap is 
particularly devastating for teachers of color, who already shoulder 
disproportionally more student debt than their white peers. As a 
result, our teacher workforce lacks diversity, which research shows can 
hurt students' academic outcomes.
    For decades, Congress has recognized its responsibility to 
eliminate cost barriers to serving as a teacher, particularly regarding 
student loans. Today, qualified teachers can receive federal student 
loan relief through Public Service Loan Forgiveness, for teaching in 
low-income schools, and for teaching in the special education and STEM 
fields.
    Nonetheless, continued financial barriers to becoming a teacher 
demonstrate that Congress must do more. As this Committee works to 
reauthorize the Higher Education Act, we must consider the provisions 
included in the Aim Higher Act to make college more affordable, and 
student debt easier to repay, for our educators. These provisions 
include streamlining student loan repayment and expanding the PSLF 
program to ensure that educators and other public servants are not 
burdened by debt.
    Each day, we rely on teachers and school administrators to shape 
the future of our country. If we are to provide our children with the 
best education possible, we must ensure that educators do not face 
overbearing cost barriers and inadequate preparation that prevent them 
from doing what they do best: empowering our children to reach their 
full potential.
    Thank you, again, to our witnesses for joining us today. I now 
yield to the Ranking Member of the Subcommittee on Higher Education and 
Workforce Investment, Mr. Smucker, to make an opening statement.
                                 ______
                                 
    Mr. Smucker. Thank you for yielding.
    As the Ranking Member from Georgia, Mr. Allen, noted that 
educator pipeline is critical to the success of our Nation's 
teachers, school leaders, and most importantly, to our 
students. Ensuring that America's educators are prepared when 
they enter their classrooms so that their students can hit the 
books is one of the most important ways to guarantee a 
successful school system in the United States.
    Title 2 of the Higher Education Act funds a program that 
seeks to do just that. It awards competitive grants for teacher 
and school leader preparation, but it falls short of providing 
school systems an adequate pipeline of talent. Title 2 provides 
funding to a limited number of institutions in exchange for a 
significant reporting burden that offers limited insight into 
program effectiveness.
    Republicans have proposed eliminating Title 2 because of 
its ineffectiveness, but if Title 2 continues as part of a 
reformed HEA, we must ensure that it supports State efforts to 
reform their teacher and school leader preparation systems. 
States must lead the way in reforming the preparation system 
that most of us agree is currently failing too many teachers 
and students. The success of our preparation programs is 
directly tied to our students' success. If we truly want 
America's teachers and students to prosper, we need to work 
together.
    Today's hearing touches on the overall health of the 
education system in the United States from K-12 through higher 
education. So I look forward to hearing from today's witnesses 
about how we can better prepare our schoolteachers and leaders 
so American students are successful at every stage of 
education.
    Thank you. I yield back.
    [The statement of Mr. Smucker follows:]

Prepared Statement of Hon. Lloyd Smucker, Ranking Member, Subcommittee 
              on Higher Education and Workforce Investment

    As my colleague from Georgia, Mr. Allen not ed, the educator 
pipeline is critical to the success of our nation's teachers, school 
leaders, and most importantly, students. Ensuring America's educators 
are prepared when they hit the classrooms so their students can hit the 
books is one of the most important ways to guarantee a successful 
school system in the United States.
    Title II of the Higher Education Act (HEA) funds a program that 
seeks to do just that. It awards competitive grants for teacher and 
school leader preparation, but it falls short of providing school 
systems an adequate pipeline of talent. Title II provides funding to a 
limited number of institutions in exchange for a significant reporting 
burden that offers limited insight into program effectiveness.
    Republicans have proposed eliminating Title II because of its 
ineffectiveness. But if Title II continues as part of a reformed HEA, 
we must ensure that it supports state efforts to reform their teacher 
and school leader preparation systems. States must lead the way in 
reforming the preparation system that most of us agree is currently 
failing too many teachers and students. The success of our preparation 
programs is directly tied to our student students' success. If we truly 
want America's teachers and students to prosper, we need to work 
together.
    Today's hearing touches on the overall health of the education ion 
system in the United States - from K-12 through higher education. So I 
look forward to hearing from today's witnesses about how we can better 
prepare our school teachers and leaders so America's students are 
successful at every stage of education.
                                 ______
                                 
    Chairman Sablan. Thank you very much, Mr. Smucker.
    And without objection, all other Members who wish to insert 
written statements into the record may do so by submitting them 
to the Committee Clerk electronically in Microsoft Word format 
by 5 p.m. on July 31, 2019.
    I will now introduce our witnesses. Michael Brosnan is the 
early leadership institute coach at Bridgeport Public Schools 
in Connecticut. He attended a traditional education preparation 
program at Fairfield University in Connecticut, and last taught 
high school history at Bridgeport Public Schools his entire 
teaching career of 14 years. Having served as a cooperating 
teacher to student teachers, mentor for two induction programs 
over his tenure, and peer observer for beginning teachers in 
2017, he became the learning and development coordinator for 
all teachers from years zero to four. He partners with local 
universities to secure placement for student teaching and seats 
some two local university advisory councils.
    Michael coordinates and delivers professional development 
for all first-year teachers to Bridgeport in partnership with 
the Connecticut Education Association. He is a district 
facilitator for the TEAM induction program that is nationally 
recognized as an excellent program for beginning teachers.
    Welcome, Mr. Brosnan.
    Next, Ms. Tricia McManus--I got that right--is the 
assistant superintendent of leadership, professional 
development and school transformation at Hillsborough County 
Public Schools in Tampa, Florida. Ms. McManus supports the 
professional learning of leaders, teachers, and instructional 
support staff, and oversees improvement efforts of the 
district's lowest performing schools. She received her 
bachelor's and master's degree from the University of South 
Florida.
    For 17 years, she served as a teacher, assistant principal, 
and principal in Hillsborough County Public Schools. For 6 of 
those years, she served as a turnaround principal in two high-
needs elementary schools where she significantly advanced 
student outcomes and raised school grades, resulting in 
recognition from the Florida Department of Education. For 8 
years, she served as executive director of leadership 
development for Hillsborough County Public Schools, and in this 
role, she provided training and support for school and district 
leaders and developed and oversaw the Hillsborough Principal 
Pipeline, a comprehensive talent management system for 
recruiting, selecting, hiring, developing, and evaluating 
schoolteachers.
    Welcome, Ms. McManus.
    Mr. John White was named Louisiana's State Superintendent 
of Education in January of 2012. Prior to being named State 
Superintendent, Mr. White served as superintendent of the 
Louisiana Recovery School District, overseeing the Nation's 
first system of policy, a publicly funded charter and nonpublic 
schools in New Orleans, and launching the Baton Rouge 
Achievement Zone to replicate successes in New Orleans.
    Prior to moving to Louisiana, Mr. White worked in New York 
City as deputy chancellor under Mayor Michael Bloomberg and 
Chancellor Joel Klein. He previously served as executive 
director of Teach for America Chicago and Teach for America New 
Jersey. He began his career as an English teacher in Jersey 
City, New Jersey. Mr. White received a B.A. in English, with 
distinction, from the University of Virginia, and a master's in 
public administration from New York University.
    Welcome, Mr. White.
    And finally, Dr. Andrew Daire, has been the dean of the 
Virginia Commonwealth University School of Education since in 
2016, and came to VCU from the University of Houston where he 
served as the College of Education's associate dean for 
research for nearly 2 years. His resume includes more than 25 
years of experience in higher education, 13 of which came at 
the University of Central Florida, where he cofounded the 
university's Marriage and Family Research Institute, among 
other accomplishments.
    Combining an academic and clinical background in counseling 
and psychology with expertise in research, Dr. Daire's style of 
transformative leadership emphasizes personal and professional 
development and for motivating faculty, staff, and students 
towards excellence, innovation, and impact in their work every 
day.
    So we appreciate all the witnesses for being here today, 
and look forward to your testimony. Let me remind the witnesses 
that we have read your written statements and they will appear 
in full in the hearing record.
    Pursuant to Rule 7(d) and committee practice, each of you 
is asked to limit your oral presentation to a five-minute 
summary of your written statement.
    Let me remind you, all of you, that pursuant to Title 18 of 
the United States Code, Section 1001, it is illegal to 
knowingly and willfully falsify any statement, representation, 
writing, document, or material fact presented to Congress or 
otherwise conceal or cover up a material fact.
    Before you begin your testimony, please remember to press 
the button on the microphone in front of you so that it will 
turn on and the Members can hear you. As you begin to speak, 
the light in front of you will turn green. After four minutes, 
the light will turn yellow to signal that you have one minute 
remaining. When the light turns red, your five minutes have 
expired, and we ask that you please wrap up.
    We will let the entire panel make their presentation before 
we move to Member questions. When answering a question, please 
remember to, once again, turn your microphone on.
    I will now recognize Mr. Brosnan.

  STATEMENT OF MICHAEL BROSNAN, TEACHER AND EARLY LEADERSHIP 
    INSTITUTE COACH, BRIDGEPORT PUBLIC SCHOOLS, MILFORD, CT

    Mr. Brosnan. Good morning, Committee Chairs Sablan and 
Davis, Ranking Members Smucker and Allen, and committee 
Members. Thank you for the opportunity to speak with you today 
regarding challenges facing the teaching profession.
    While there is certainly room for growth in many areas, the 
recruitment and retention of a high-quality teaching force is 
an excellent place to start.
    My name is Michael Brosnan, and I have been teaching in 
Bridgeport Connecticut's public schools for the past 16 years. 
I taught history at Warren Harding for 14, and for most 
recently the past 2 years, I have been responsible for 
supporting new educators across the city. I coordinate 
partnerships with educator preparation programs and place 
student teachers, coordinate and deliver over 25 hours of 
professional development for all first-year teachers, observe 
and support beginning teachers as their peer, and facilitate 
the State teacher induction program.
    Essentially, my main goal is to not have a job in a few 
years. I am hoping that our efforts are so successful that we 
will be able to retain most, if not all, of our new educators.
    Bridgeport is the largest district in Connecticut, serving 
more than 23,000 students and employing slightly more than 
1,500 educators. Because this former industrial city has seen 
very difficult times, the number of students qualifying for 
free and reduced lunch is so high that the meal program is 
fully subsidized throughout the district for all students. 
Bridgeport schools are also among the State's most diverse. In 
fact, the school where I taught most recently, at Warren 
Harding High School, over 95 percent of our students are 
students of color and represent more than 100 nations.
    Our city is ripe for reinvention and culturally rich, but 
the fact is we are plagued by perpetual underfunding, and that 
means we face many obstacles. Recruiting teachers and retaining 
them is one of them. Effectively retaining teachers will 
significantly close our shortage problem. Bridgeport currently 
has an annual attrition rate of 10 to 12 percent, and many of 
those who leave the profession are educators with under 5 years 
in the district.
    The hope is that through expanded professional development 
specifically geared toward teachers' needs, additional peer 
supports, and an innovative approach to mentorship, we will be 
able to significantly reduce that attrition rate.
    Recruitment of new educators is also a challenge for our 
district. Despite being a large urban district, the surrounding 
towns' salaries far surpass ours, and realistically, our 
working conditions are far more challenging. While Bridgeport 
Public Schools does have the highest number of teachers of 
color in Connecticut, the faculty is still far from a mirror 
image of our students. It is important for our students of 
color to be able to see themselves in their teachers.
    In addition, there are certainly barriers for entering the 
profession, and one of these is obviously the cost of higher 
education. In most States, including Connecticut, teachers are 
required to have multiple degrees in order to continue 
practicing; however, there is a large gap between the amount 
degrees cost and the salaries earned.
    To that end, it is vital that we invest in perspective 
educators by protecting Federal loan programs like the Public 
Loan Service Forgiveness Program, the Teacher Loan Forgiveness 
Program, and TEACH Grants.
    Despite some recent progress in recruitment and retention, 
there are systemic challenges that certainly go beyond my 
purview, and I thank you for seriously considering ways to 
improve our educational system and the lives of our educators. 
Certainly, there is much work to be done, and I appreciate your 
time this morning and your work on these items. Thank you.
    [The statement of Mr. Brosnan follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Sablan. Thank you very much, Mr. Brosnan. Wow, you 
saved us a lot of time.
    So, Ms. McManus, you have five minutes, please.

   STATEMENT OF TRICIA MCMANUS, ASSISTANT SUPERINTENDENT FOR 
       LEADERSHIP, PROFESSIONAL DEVELOPMENT, AND SCHOOL 
 TRANSFORMATION, HILLSBOROUGH COUNTY PUBLIC SCHOOLS, TAMPA, FL

    Ms. McManus. Good morning, Chairman Sablan, Chairwoman 
Davis, Ranking Members Allen and Smucker, and Members of the 
committee. My name is Tricia McManus, and I am the assistant 
superintendent for Leadership, Professional Development, and 
School Transformation in Hillsborough County Public Schools. In 
this role, I oversee our Principal Pipeline, professional 
development for schoolteachers and leaders, and 50 of our 
schools who have historically struggled with performance. I am 
truly grateful for the opportunity to testify about the 
importance of preservice training and ongoing support in 
development of school leaders. The success of our schools and 
the students entrusted upon us greatly depend on the 
effectiveness of the adults that have chosen this noble 
profession of education.
    I come before you today as an educator with 28 years of 
experience with one goal in mind throughout my career: to make 
the lives of our students better and to strengthen access and 
opportunities for students who have been underserved in order 
to close achievement gaps and give every student the future 
they so greatly deserve.
    A strong educational experience for each student requires 
system and school change that is driven by equity and the 
belief that we must differentiate resources and supports to 
level the playing field if we are going to provide every 
student a chance at a better tomorrow. It means that equal 
opportunity for high-quality, on-grade level, and rigorous 
coursework and instruction exists for every student regardless 
of race and ZIP Code. It means that exposure to electives and 
extracurricular activities that promote positive social, 
emotional, mental, and physical health and can lead to future 
college and career choices are available to every student, and 
it means that facilities that house every one of our students 
are equipped with updated technologies and are safe and 
inviting places to learn. It means that racial and other biases 
and disparities are addressed and eliminated and that all 
students have a voice. None of this can be achieved absent 
great leadership.
    Research has shown over and over again that student 
achievement doesn't improve in our schools without an effective 
school principal. Strong leadership allows teachers to 
flourish, which leads to improved student outcomes. These are 
the leaders we are working hard to develop, support, and 
retain.
    Hillsborough County Public Schools is the eighth largest 
district in the country. We serve nearly 218,000 students in 
more than 300 schools. A majority of our students are students 
of color and qualify for free and reduced lunch.
    Seven years ago, Hillsborough partnered with the Wallace 
Foundation to study whether student outcomes could be 
positively impacted if we built the comprehensive principal 
pipeline that ensured the placement of strong principals into 
school leader vacancies. After implementation in our district 
and five others, a RAND report found that principal pipelines 
do work. The study showed that schools with prepared and 
supported principals, via a principal pipeline, markedly 
outperformed similar schools in comparison districts in both 
reading and math.
    Before the pipeline, Hillsborough had a preservice program 
that was not grounded in strong leader standards, which 
resulted in principals not ready to lead in high-need schools. 
In tackling this and other issues, we developed a system that 
addressed four key components: leader standards, preservice 
training, which included recruitment and selection processes, 
selective hiring, and on-the-job evaluation and support. We 
identified five standards that make an effective school leader: 
achievement and results focused, instructional expertise, 
strong people management and development skills, the ability to 
build relationships and positive school culture, and strategic 
change management with problem-solving targeted at the root of 
an issue.
    From here we designed two preservice programs and two on-
the-job support programs grounded in the five leader standards. 
All of the leadership development programs have been extremely 
impactful for AP and principal readiness, an early success in 
the role. We work closely with five local universities who 
shifted their coursework to allow with our standards.
    Our Preparing New Principals program takes place over 2 
years, and coursework and on-the-job learning experiences teach 
our aspiring leaders how to lead from an equity-focused place 
and in a culturally responsive manner, challenging implicit 
bias, established and restorative school environments, leading 
a school equity audit, and having hard conversations, among 
many other things. Our principals also participate in a 2-year 
induction program with monthly cohort sessions that build upon 
the learning from the PNP program and allow them to share 
problems of practice and solve them together. Every new 
principal is assigned a full-released, high-performing 
principal as an induction coach who provides ongoing--
onboarding and transition coaching.
    The role of school principal is complex, and the 
expectations set upon them require that they are developed 
prior to the job, while on the job, and throughout their time 
in the role. Principals are the ones that set the right 
conditions for staff and students to be successful, and we must 
ensure they have the tools needed to accomplish this heavy 
lift. This is why it is critical that Federal policy support 
the development of school principals the same way it does for 
classroom teachers. The magic happens in our schools when 
leaders and teachers work together in support of our students.
    The results have been positive in HCPS. New leaders have 
shown commitment to equity by closing graduation rate gaps, 
decreasing student of color discipline referrals and 
suspensions, and increasing the number of support programs 
available to students.
    We must make school leadership a priority as we think about 
ways to improve schools across the country. We are a Nation 
with vast resources, and we should prioritize funding to States 
and districts to support the preparation, development, and 
ongoing support of leaders who have been given the charge to 
create brighter outcomes for students they serve.
    The Higher Education Act should reflect what practitioners 
already know to be true: Effective school leadership is one of 
the most important levers to ensure an equitable education for 
all students.
    Thank you.
    [The statement of Ms. McManus follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Sablan. Thank you. Thank you, Ms. McManus.
    I now recognize Mr. White for five minutes, please.

  STATEMENT OF JOHN WHITE, STATE SUPERINTENDENT OF EDUCATION, 
              STATE OF LOUISIANA, BATON ROUGE, LA

    Mr. White. Respective Chairmen, Ranking Members, and 
Members, I thank you for the opportunity to speak with you 
today about the Higher Education Act.
    I have been blessed to serve as State superintendent of 
education for Louisiana for nearly the last 8 years. Our State 
has implemented its plan for improvement called Louisiana 
Believes, in partnership with the Federal Government, and we 
have utilized the tools that Congress has given our State to 
develop a plan by and for our State. Among those tools is Title 
II of the Higher Education Act, the goals of which are 
laudable, but the effect of which is not, in its current 
iteration, profound at improving educator preparation programs.
    While our national conversation focuses frequently on 
whether today's teachers are effective, we have come to think 
that if a teacher is ineffective after four years of 
preparation in a college of education funded by Federal and 
State tax dollars, it should not be shame on him, it should be 
shame on us. We owe it to teachers to prepare them in a 
professional manner and to declare them effective before they 
take a full-time job in the classroom.
    Research shows that aspiring teachers who prepare for the 
job alongside mentors with proven track records of success 
demonstrate classroom performance akin to teachers with 2 
additional years of classroom experience. With high-quality 
preparation, we can end the tragic phenomenon of the hapless 
first-year teacher. However, research also shows us that there 
is wide variation in the quality and effectiveness of educator 
preparation programs.
    In 2014, Louisiana surveyed its teachers in order to gather 
feedback on teacher preparation experiences. More than 6,000 
responded, overwhelmingly saying that they were not fully 
prepared to teach in their first years in the classroom and 
that they wished they had more time to practice actually 
teaching under the tutelage of a mentor educator. We soon, 
thereafter, launched Believe and Prepare, providing the State's 
most innovative school systems and colleges of education with 
grants and with support to develop residency models in which 
aspiring teachers gain a full year of practice as college 
seniors, under the supervision of a certified mentor educator. 
Believe and Prepare began with just seven school systems and 
seven preparation providers.
    In 2017, after years of hard work, however, our State Board 
of Elementary and Secondary Education codified the Believe and 
Prepare model into State regulation, requiring all aspiring 
teachers in Louisiana to experience a full-year residency under 
a State certified mentor.
    Revisions to Title II of the Higher Education Act could 
further support models like Believe and Prepare, enabling 
States to use work study and teacher quality partnership grants 
to support comprehensive visions for improving educator 
preparation.
    Alternative certification provided by universities and 
others must be part of the discussion as well. While there are 
some outstanding alternative certification programs, some still 
provide minimal practice and minimal mentoring during the 
transition to the classroom. Eight rural school systems in 
Louisiana are currently piloting cost-effective models of year-
long mentorship for alternative certification candidates.
    In the first year of the pilot, the amount of time 
alternative certifications candidates spent with mentors 
radically increased. On average, these candidates are spending 
one period per day every day during the entire school year with 
their mentor, a practice we hope will soon be expanded 
statewide.
    Again, teacher quality partnership grants would have been a 
beneficial funding source, but the program has been tailored to 
small and narrow partnerships rather than to statewide 
improvement efforts.
    Finally, the complement to developing and supporting better 
educator preparation programs is defining what programs must 
achieve in the first place and identifying both positive 
performance and evidence challenges.
    In 2016, Louisiana developed an accountability system for 
both traditional and alternative preparation programs. Our 
system identifies programs, strengths, and weaknesses in three 
factors: an onsite review, the percentage of candidates who are 
placed in high-need settings and subject areas, and the 
learning outcomes of students taught by program alumni. When 
combined, these measures create a summative rating for all 
programs in the State.
    Revisions to Title II of the Higher Education Act could 
simplify the complex data reporting requirements, focusing 
States on the limited set of measures that set shine light on 
States' true effectiveness. Fortunately, other States are also 
making important steps forward on these issues, frequently 
supported by the Council of Chief State School Officers, Chiefs 
for Change, and Deans for Impact. The Higher Education Act can 
best support such plans by requiring clear reporting of the 
facts and by funding plans for systemwide improvement.
    I appreciate greatly the chance to share Louisiana's story 
and look forward to today's discussion.
    [The statement of Mr. White follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Sablan. Thank you very much, Mr. White.
    And now, Mr. Daire, you have five minutes, please. Thank 
you.

   STATEMENT OF DR. ANDREW DAIRE, DEAN, SCHOOL OF EDUCATION, 
         VIRGINIA COMMONWEALTH UNIVERSITY, RICHMOND, VA

    Mr. Daire. Chairman Sablan, Chairwoman Davis, Ranking 
Member Allen, Ranking Member Smucker, and Members of the 
committee, good morning. I am proud to be dean of Virginia 
Commonwealth University School of Education. VCU is an urban 
research community-engaged university in Richmond. Based on the 
recent U.S. News and World report ranking, our school of 
education is our country's 20th best graduate school of 
education, 11th best public graduate school of education, and 
third best for online programs. We are home to both the 
traditional teacher prep program and an innovative residency 
program, which together graduates about 250 teaching and school 
counseling candidates each year.
    We are constantly thinking about how we can do more to 
prepare teachers for high-quality and hard-to-staff schools in 
our community and across the country. Dr. Martin Haberman said: 
Completing a traditional program of teacher education as 
preparation for working in urban high-need schools is like 
preparing to swim the English Channel by doing laps in the 
university pool.
    Not everyone wants the challenge of swimming the English 
Channel and not every high-need school is the English Channel, 
but we must do our best to find and prepare those who are up to 
the challenge.
    It is imperative that programs better prepare teachers to 
meet the needs of our increasingly diverse K-12 student 
population. We know that the most effective and successful 
teachers understand their students' broader cultural context 
and approach teaching in a student-centered way.
    Woven throughout our programs are strategies to address the 
needs of more racially, ethnically, linguistically, and 
economically diverse student populations. Attention to these 
items is critical to improving student achievement and teacher 
retention.
    To further improved teacher preparation, I offer the 
following recommendations. First, we need to provide earlier 
and extended opportunities for in-classroom experience which 
often comes too late. VCU's Richmond Teacher Residency program, 
supported by the Teacher Quality Partnership program, addresses 
this problem. RTR's intensive yearlong experience places 
teaching candidates in high-need schools under the mentorship 
of a master teacher. RTR has had positive impacts on teacher 
retention, student performance, and diversification of the 
teaching workforce.
    Additionally, we have successfully leveraged our TQP award 
into additional funding commitments from the State legislature, 
local school districts, and corporate philanthropic entities to 
ensure sustainability after our TQP award ends.
    To provide early classroom exposure, VCU has also launched 
Substitute Teaching the VCU Way, which recruits and trains 
students across campus to substitute teach in high-need school 
districts.
    Second, we must prepare teachers for reality. The 
intersection of poverty, economic immobility, and insecurity in 
housing, food and safety have a real impact on the academic 
success of underrepresented minority and generationally poor 
students. Our teachers must understand these factors.
    Third, we must focus on teacher retention as well as 
recruitment and preparation. America's public schools are 
hemorrhaging teachers. Hardest hit are those serving low income 
and minority students forcing schools to hire unprepared 
provisionally licensed teachers and spend millions of dollars 
each year that they can't afford on recruitment and retention. 
This has a severe impact on student achievement. We are 
addressing this by providing 2 years of professional 
development and induction support for our graduates teaching in 
Title I schools, and we are designing a residency program for 
principals in high-need schools.
    Fourth, we must expand pathways to teaching. This is key to 
addressing teacher shortages. One pathway at VCU is RTR. 
Another is the VCU Pathways to Teaching career switcher program 
which equips and supports second career professionals for the 
transition to teach in high-need schools. We are also excited 
to offer five new undergraduate degrees in teaching this fall.
    The research is clear: The quality of teachers in our 
schools is the most important school-based factor in student 
achievement.
    As you consider improvements to teacher preparation 
programs, immediate innovation and action is required to 
address the challenges in high-needs and low-performing 
schools. The challenges faced by many students in schools are 
not average and will not be met with average efforts. As the 
late John Stanford said, the victory is in the classroom. We 
must prepare teachers to meet the needs of all students.
    Thank you for your time, and I look forward to answering 
your questions.
    [The statement of Mr. Daire follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Sablan. Thank you very much, Dr. Daire.
    Under Committee Rule 8(a), we will now question witnesses 
under the five-minute rule. As Chair, I will go first, and then 
we alternate, we yield to the Members on the other side of this 
aisle.
    So I now recognize myself for five minutes.
    Dr. Daire, research suggests that well-designed and well-
implemented teacher residency models can create long-term 
benefits for districts, for schools, and most importantly, for 
the students they serve. So funding under the Teacher Quality 
Partnership grant program under Title II of the Higher 
Education Act can be used to support residency models; however, 
the Federal Government only invests around $40 million in the 
sole Federal program that supports the preparation of our 
Nation's teachers.
    Can you speak to the importance of increasing Federal 
investments in high-quality teacher residency programs?
    Mr. Daire. Thank you, Chairman Sablan. The teacher 
residency programs we have found to be quite effective in 
preparing our educators. Our current cohort is, I believe, at 
about 42 percent underrepresented minority, which is more than 
double what we see in our traditional programs.
    When TQP was originally funded, I believe it was at $300 
million, and that funding has decreased. And I think it is a 
very strong investment in our teacher preparation because 
models--we are learning models and best practices from those 
programs that we are actually implementing in our traditional 
preparation programs, so I do believe that it has been a strong 
investment for us. And when I say us, meaning the surrounding 
communities in Richmond that are benefiting from the high-
quality teachers that we are preparing.
    Chairman Sablan. Thank you. Thank you, Doctor.
    Ms. McManus, what would it mean to school districts if 
Congress expanded Title II A funding to include school leader 
preparation?
    Ms. McManus. Title II is the funding source that is used in 
many districts to fund current leader and teacher preparation, 
and so to expand it would be more opportunities for the 
programs that you have heard across the group today, from 
residencies to preservice training programs, to on-the-job 
support through coaching and mentoring. Title II is that 
funding source we look to for that, and so by expanding it, we 
would be able to offer more opportunities so that our leaders 
and teachers are more prepared and have the supports they need 
once on the job.
    Thank you.
    Chairman Sablan. Thank you. I come from a district where we 
have a community college, but the only two 4-year degrees they 
offer are in business and--first one is teacher--in education. 
And so many of our students, many who are nontraditional, get 
their 4-year degrees either at home or here in the mainland. 
And then to continue to develop professional development, they 
now attend online courses. I just had a nephew who actually 
received his doctorate from--I think it is USC or UCLA, but he 
had to move for three summers in a row, actually had to go to 
campus and take courses there, do teacher residency or 
whatever, but it took 3 years to do that, and finally, he just 
got his doctorate in education. So, yeah, these programs are 
important, including to my district in the Northern Marianas.
    And now choose to recognize the Ranking Member of the full 
committee, once she gets there--okay, she is there now. Dr. 
Foxx.
    Ms. Foxx. Thank you. Thank you, Mr. Chairman. I appreciate 
that.
    I want to thank the panelists for being here today.
    Mr. White, I don't think I have ever talked--pardon me. I 
have my two teachers in Congress here again today, Mr. 
Chairman. They are teachers in the Fifth District, and if they 
could stand up. So they have a great deal of interest in this 
hearing today. Thank you.
    Mr. White, I don't think I have ever talked to a teacher 
who said that he or she was reasonably prepared to enter a 
classroom at the end of their preparation program. Most of the 
testimony heard today is about how existing preparation is 
insufficient. I am sure part of the challenge is that teaching 
is hard, and preparing someone to face a classroom with 
students for the first time is really hard.
    However, I have a basic and blunt question: Why do you 
think so much of the preparation that perspective teachers and 
school leaders receive is so poor?
    Mr. White. Well, I think that the answer that you have 
gotten when you have asked teachers were they fully prepared 
and they have said no is because so much of our experience in 
being prepared to be a teacher does not involve teaching. And 
when I talk to the teachers who are finishing their full year 
as residents under the tutelage of a mentor educator as full-
time faculty and they are about to enter the profession on a 
full-time basis on their own, they tell me virtually 
universally that they feel prepared to do what they are about 
to do because they have already done it.
    We have a circumstance that is affecting, in particular, 
low-income kids and kids in rural environments, where we 
routinely place first-year teachers in front of them with no 
legitimate prior experience as teachers, and that needs to 
stop.
    Ms. Foxx. Thank you very much.
    Mr. White, this will relate to my first question, but like 
many things in education, governance of the teacher and school 
leader pipeline can be confusing. Just on this panel, we have a 
representative from a college of education, two school district 
representatives, and you from a State agency. Now, I know there 
are several other actors not represented here.
    Could you explain which entities are involved in the 
governance structure in Louisiana and their respective roles? 
And then to the extent you are familiar with other States, 
could you explain how these governance structures vary across 
States?
    Mr. White. Well, the State legislatures are where it 
starts, of course, in governor's offices who then create rules 
for State boards of education, who then create rules for both 
school boards and for institutions of higher education. Those 
rules at the same time are complemented by boards of regents or 
whatever the name of a structure of the commission of higher 
education is. And then you have both university systems. Within 
them, you have specific universities; within them, you have 
specific colleges, and within the colleges you have specific 
departments.
    And out of all of that, there is an attempt to make for a 
high-quality education experience for somebody in whose hands 
will be trusting 20, 30 young lives next year.
    The governance is where much of the problem starts. And I 
hate to say this, but I believe that the rendition I just gave 
is the simple version.
    In other States, some of those responsibilities are divided 
in two or three, making it even more complicated and the 
likelihood of a high-quality product being the culmination even 
less likely.
    Ms. Foxx. Well, I think your description is very 
instructive for us to see how complicated it is, and I 
appreciated in your remarks, you are talking about 
accountability. I think that is where our big problem lies. And 
I appreciated again, your comments about changing the structure 
of Title II. I think what is lacking, particularly in this very 
complicated governance structure, is the avoidance of 
accountability. And I think until we can get some clear 
accountability measures out there, and I--honestly, this is 
what I talk about almost all the time. If we are going to spend 
hard working taxpayer dollars well, there needs to be 
accountability.
    Now, I had the great privilege of teaching for 15 years at 
Appalachian State University. I took a master of arts in 
college teaching and I did do a practicum in teaching, but I, 
frankly, got almost no preparation for teaching in that 
classroom, practically none, except the fact that I had sat 
through 7 years' worth of taking courses and was expected sort 
of to simply to do the same thing. So it is a real hit or miss 
issue. But thank you all again for being here today. I 
appreciate your testimony.
    Thank you, Mr. Chairman.
    Chairman Sablan. Thank you, Dr. Foxx.
    Mr. Courtney, questions for five minutes.
    Mr. Courtney. Thank you, Mr. Chairman and to Chairwoman 
Davis, for holding this hearing, and the Ranking Members, and 
all the witnesses for being here today.
    I would like to focus on an issue that we are going to have 
before us when we do higher education reauthorization and, Mr. 
Brosnan, you kind of referred to it very directly in your 
testimony when you said that one of the biggest disincentives 
is, quote, the large gap between the amount degrees cost and 
the salaries earned.
    Twelve years ago, this committee actually reported and 
enacted the College Cost Reduction Act, which created the 
Public Service Loan Forgiveness Program, which, again, very 
intentionally was focused in terms of trying to help teachers, 
as a public service occupation, to be able to at least get the 
overhang of student loan debt discharged after 10 years of 
faithful payments. The commencement of discharge was supposed 
to have started smoothly, hopefully, back in 2017 and 2018 and 
2019.
    Last week, there was a lawsuit filed in U.S. District Court 
in Washington against the Department of Education. The 
statistics cited in the complaint are stunning. Out of the 
75,000 applications for discharge, so far, the DOE has only 
processed and discharged about 500 some odd loans. That is less 
than 1 percent of the applications. And the lawsuit obviously 
is focused on the fact that the loan servicers who, again, are 
hardly ever held accountable in terms of just the way they 
handle these loans, are just not living up to the requirements 
of the law.
    I would note that in 2018, on a bipartisan basis, we passed 
a measure in the omnibus, the temporary Public Service Loan 
Forgiveness Program, which, again, set up a system where people 
who were making payments for one version of a loan versus a 
direct student loan would get credit for those payments, 
because that was one of the obstacles for discharges going 
through. Again, as the complaint laid out last Thursday, the 
Department is still, even with that additional direction from 
Congress and resources, not following through on the intent of 
the law.
    So I would like to just sort of follow up again on the 
point that Chairwoman Davis made that, you know, streamlining 
and making the Public Service Loan Forgiveness Program actually 
functional should be one of the focuses of HEA reauthorization.
    Mr. Brosnan, are you hearing from some of your colleagues 
about difficulties that they are having, and also whether or 
not that was really one of the sort of lights at the end of the 
tunnel for people who are taking on teaching that they could 
actually make it an affordable occupation?
    Mr. Brosnan. Thank you, Representative Courtney. I 
certainly agree with the Teacher Loan Forgiveness Program. I 
think you have heard from all of my esteemed colleagues on the 
panel here that bringing in high-quality teachers is a struggle 
across our entire country. I think that the Public Service Loan 
Forgiveness Program or Teacher Loan Forgiveness Program that 
did exist or kind of exists now is certainly a--it is certainly 
a benefit for folks who are interested in teaching. I think the 
larger population at least in--of course, all State rules are a 
little bit different, but I think in Connecticut, folks can 
teach with a bachelor's degree and appropriate training, but 
they can't advance to the next level's certification 
effectively staying in their profession without a master's 
degree.
    Knowing that there is a loan forgiveness program, I think 
it adds an appeal to continuing in the profession and securing 
an appropriate master's degree. I can speak from that from 
personal experience. I began teaching for the first 5 years on 
a bachelor's degree, and it turns out I really liked teaching, 
so I figured I better go get a master's and there was a loan 
forgiveness program that certainly helped offset some of that 
cost.
    Anecdotally, just based on my role working with our newer 
faculty, I have actually received inquiries from three of my 
colleagues whose loan application was denied. I am not sure of 
the circumstance or the reason, but at least as an anecdote, I 
have received those three.
    Mr. Courtney. You are talking about loan discharge 
applications?
    Mr. Brosnan. I am sorry. Yes. That is right.
    Mr. Courtney. And, again, certainly I am sure I am not the 
only Member that is getting those calls right now. One from 
Coventry, Connecticut, a teacher took almost a dozen tries 
through the system before, and it was only because they just 
were obsessed with making sure they weren't going to get--take 
no for an answer from the Department.
    And, again, just in terms of retention, particularly in the 
area of STEM, I mean, people have lots of other choices out 
there, and if you have got to pay debt payments, you know, 
every month, I mean, the fact of the matter is, if you have got 
a math degree or an engineering background, you have got much 
more options right now in the economy.
    Would you agree that--again, you are seeing that temptation 
because of costs, you know, draining the ranks?
    Mr. Brosnan. Absolutely. Without a doubt, I think 
nationwide our highest shortage areas are in the maths and the 
sciences and, in some cases, the engineering programs. And the 
salaries for a public schoolteacher are not comparable 
whatsoever to that of the private workforce with holding those 
degrees.
    Chairman Sablan. Mr. Brosnan, I am sorry, I am going to 
have to interrupt at this time.
    And I would now like to--five minutes of questioning to Mr. 
Allen, the Ranking Member on this--
    Mr. Allen. Thank you, Chairman. And thank you all for being 
here this morning.
    And, you know, I have had experience, like I said, growing 
up in the public education arena, both parents involved. And 
then I have also had some experiences as a Member of Congress, 
one, the school system--in an inner city school system that 
went to three elementary schools: one went STEM, one went art, 
one went leadership. And these young people can recite Stephen 
Covey's principles, and I talked to the teachers there and the 
teachers are very excited about what they are doing. They are 
making a difference.
    And we have got another school that is a faith-based 
school, private, and basically, the folks going to this school 
are inner city kids who are declared losers in the other public 
school system, and so their parents have no choice but to send 
these kids. And thank goodness we had this school. I talked to 
those teachers, and I have never seen teachers so excited about 
what they are doing and the difference they are making.
    And then I talked to certain other public schoolteachers, 
and they had to be so careful. I mean, like, if they have a 
child that is having issues or whatever and they can't even 
express their value system because they are afraid of the legal 
implications.
    So we need to get to the bottom of this, because I know 
obviously compensation has something to do with it, but have 
you really done some surveys to get at the real reason that, 
you know, we are not--that public schoolteachers really don't 
feel like that they are able to make a difference out there? 
Mr. White?
    Mr. White. Well, we do surveys every year of all teachers 
who leave their jobs. And without question, while I completely 
agree with Mr. Brosnan's points about the finances of it, 
having lived it myself, it is the teachers whose experience in 
the classroom and the supportive environment and the team 
relationships that they have create the greatest struggles for 
them, those are the ones who are leaving or the most frequently 
cited reason for while they are leaving, which I am not laying 
on the doorstep of anyone in particular, school leaders least 
of all. It is a hard job.
    But it is true that where leadership is creating an 
environment where teachers are supported as a team, no matter 
how difficult the challenges students bring to the classroom, 
teachers are feeling persistent and resilient in the face of 
it; whereas, when teachers feel isolated and they don't have 
that climate of support, they are looking for better things.
    Mr. Allen. There has been a huge disconnect that I 
recognized once at the beginning of my service on this 
community between the employer and the educator, and I blame 
that more on the employer than I do the educator, to be honest 
with you. I wished I had done more as a business to help 
educate young people because I think the employers just expect 
the educators to produce great employees, and there needs to be 
some teamwork there.
    In your particular situation, have you seen those 
relationships evolve where, like--for example, I know that if 
you are in the third grade and you are not reading at the third 
grade level by the time you finish the third grade, you 
probably won't graduate, and then things don't go well for 
those folks who don't graduate from high school.
    Have you seen any energy between the employers, the 
business groups, and educators on how to fix this problem?
    Mr. White. Yeah. I mean, I think there are certainly places 
across the country that are dealing with a couple of these 
issues. First, you see great public-private partnerships in 
districts across the country in terms of providing basic 
support, for example, after-school programming, out-of-school 
employees coming in to work with kids on reading skills, for 
example. And then I have also been encouraged, and your State 
in Georgia has been a leader on this, and employers who are 
providing educational experience to students who are not bound 
for 4-year universities to help them through apprentice 
programs and so on find a role that is appropriate to their 
level of education and to the insistence that they probably 
need both good jobs and further education. So I would agree 
with your premise, Congressman, that when employers take a 
systemic role, not just sending volunteers into the classroom 
for a nice principal for a day type thing, but really truly 
getting their people in to read with kids, or on the back end 
of it, providing substantive career-based experiences, that 
relationship can have an extraordinary impact.
    Mr. Allen. Well, we don't want to lose any young, people 
and somehow we have got to stimulate them, now it looks like, 
at a very early age to pursue this, and I think the teachers 
would welcome that as well.
    Mr. White. Yes, sir.
    Mrs. Davis. [Presiding.] Thank you, Mr. Allen.
    I am going to move to Mr. Takano.
    Mr. Takano. Thank you, Chairwoman Davis. Mr. Brosnan, I 
want to follow up on some of the things you have said in your 
opening statement about the importance of mentors and 
educational leaders in terms of shaping whether or not teachers 
remain in the profession and whether they can start as 
effective teachers. And also the high turnover of principals.
    I taught for 24 years, I have watched some teachers ascend 
very quickly into those leadership roles without even having 
spent more than 2 or 3 years in the classroom. I thought they 
were making a mistake, trying to become the principal or 
assistant principal so quickly.
    So let me just stop there and have you respond to what 
makes an importance of mentorship. What makes an effective 
mentor?
    Mr. Brosnan. Thank you, Congressman. I will say I am really 
enthused by hearing Mr. White, Ms. McManus and Dr. Daire with 
the programs of a longer period of practicum in the classroom 
prior to graduation. Once somebody enters the profession I 
think the importance of being paired with a seasoned mentor or 
a seasoned teacher is critical. It is very rare in a business 
environment that somebody would leave college and be asked to 
manage 150 people on a daily basis. And realistically for most 
of our high schoolteachers, that is what we are asking them to 
do, to interact and manage the behavior and academic 
performance for 150 students. Having access to a seasoned 
mentor certainly makes that experience more tolerable.
    Mr. Takano. I go along with this idea of a longer 
practicum. I think I made a mistake in my early years of 
teaching. I thought just having a degree from an Ivy League 
school was enough to let me go and teach, that the content that 
I had in my brain was going to be enough.
    But the problem for me was and I think for many others who 
were looking into going into a profession that does not pay as 
well as other professions the barrier to entry is if we are 
going to have a longer practicum, I think we have got to be 
able to support these people, we have got to pay them. Much 
like the building trades will pay an apprentice to go through 
such a long practicum. What do you think about the things I am 
saying now?
    Mr. Brosnan. I actually fully agree with you. I think that 
a longer practicum does prepare students better, college 
graduates better for the classroom without a doubt. And I do 
agree that potentially looking at a longer program could be 
perceived as a barrier, but at the same time the success rate 
in the first and second year of teaching for that professional 
would be significant.
    Mr. Takano. I realize, I am struck by the lack of 
partisanship on this panel, I am pleased to see that. I don't 
mean to be focusing on only Mr. Brosnan, but--so, this longer 
practicum, I look back and I think that is a good idea, that 
people need more practice in the classroom. They do need 
content area knowledge, but that actual experience--especially 
in low-income schools and schools that have a lot of diversity. 
There is just a lot of ways in which a young teacher can get 
tripped up in that situation. And being trained under a really 
good mentor or a good supervising teacher for a longer period 
of time I think is a big part of that solution.
    Ms. McMahon and Mr. White, any others, any more reactions 
to some of the things I brought up here in terms of how we 
encourage, how do we pay for this? And do you think that paying 
people to go through this practicum is part of the solution 
too.
    Mr. White. Thank you, Congressman. In our residents and 
mentors are both paid. If you are a college student in your 
fourth year in college, you are paid as an undergraduate to be 
faculty in that school.
    Mr. Takano. I like this term residency, because it kind of 
echoes what doctors go through. And I think we need to think of 
the kind of ways we teach teachers can be no less intensive 
than the way we think of teaching doctors, and training 
doctors. Do you have a comment about that?
    Mr. White. I agree. I think they are called residents for a 
reason and it is to draw a parallel with the medical 
profession. I think the trick of course comes in alternative 
certification models that are done expressly largely because of 
cost reasons. They are done to minimize costs both to the 
candidate and to the school system. And how we find a way 
knowing that those numbers of teachers are increasing? How we 
find a way to create a cost effective but also effective 
programs in those cases is hard.
    Mr. Takano. I hope we might as the questions go on, that 
the Members might ask more questions about this residency 
model, how it differs that we can't have alternative methods of 
certification, meaning skimpier, less effective training.
    My time is up. And I am rather frustrated because this is a 
very rich topic. And I hope we can get more of what--suss out 
more about this residency.
    Mrs. Davis. Thank you, Mr. Takano. Mr. Banks.
    Mr. Banks. Thank you, Madam Chair. This is an issue that I 
very much appreciate the committee is investing time to talk 
about. An issue that I worked on a little bit at the State 
House in Indiana when I served in the State legislature. As the 
Indiana State senator in 2013 I wrote legislation that was 
signed into law by then governor Mike Pence to establish a 
principal leadership institute at Indiana State University. 
Since then the Indiana Principal Leadership Institute has 
provided school principals with training and leadership, 
management, and communications skills to better manage their 
school and improve outcomes for teachers and students.
    IPLI's direct impact includes 1,900 principals, 70,000 
teachers and more than 1 million students in Indiana. As you 
can imagine, I am very proud of that piece of legislation that 
I was a part of writing and seeing it passed through the State 
legislature in my home State.
    The institute has been enormously successful. With 94 
percent of school superintendents reporting that the leadership 
capacity of their principals has increased due to them going 
through the course work at the IPLI. In addition, 20 of the 56 
principals in the first cohort were able to increase their 
school level grades after just 1 year. Simply put, this 
institute has led to measurable and positive outcomes for 
principals, teachers, and students.
    So my question, Mr. White, would you agree that we need 
more State level initiatives like the IPLI to better prepare 
principals to leave their schools and improve student outcomes? 
And are you aware of other State-led initiatives like the one 
in my State across the country that might be--might have an 
effective story to tell as well?
    Mr. White. I am, I do believe that what you have done in 
Indiana is representative of the need for States to assert a 
view on this. A good principal in one setting should be--have 
essential skills that are the same as principals in other 
settings. And when I think about high quality models, and I 
would look at the National Institute for School Leadership for 
example which has done some fantastic work to do something to 
what you are describing in Louisiana, but also in Kentucky, and 
also in Pennsylvania and in States across the country there, 
founded on the best models across the world, and I am very 
impressed with what they have done.
    I would also look at the New York City Leadership Academy, 
which was founded under mayor Bloomberg about 15 years ago to 
try to centralize the training of principals in New York City 
and has now expanded its model, a system that is the size of 
some States and some States many times over to try to scale an 
efficient management centric model that produces high quality 
leaders at scale.
    Mr. Banks. I appreciate that. With the two minutes I have 
left, I am going to yield the remainder of my time to Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Banks.
    I want to add that I believe it is probably at least 40 
years old that North Carolina has had a principals institute or 
principals program established through the Institute of 
Government. And my understanding over the years and we might 
not have time to respond to this, but that what makes a great 
school is the principal and parental involvement. We really 
haven't talked much about that today, but that is my 
understanding.
    But I want to respond to the discussion we had a few 
minutes ago on teacher loan forgiveness and the public service 
loan forgiveness program. There is a lot of concern right now 
from Members of Congress, teachers, and other student loan 
borrowers that the PSLF program is not being run in good faith 
by the loan servicers and Secretary DeVos. It is time to set 
the record straight. It is Congress who sets the terms and 
conditions borrowers must meet to receive PSLF.
    If the program is not working, it is because the design was 
poorly done by Members of Congress. This program was designed 
under a Democrat administration, under a Democrat majority in 
the Congress. It was made unnecessarily complicated, not unlike 
what we have heard today about teacher preparation programs.
    Furthermore, the previous administration had 8 years to 
spread the word about PSLF requirements that borrowers and 
contractors must meet and they failed to do an adequate job.
    Additionally, Congress set the terms and conditions of the 
TEPSLF program which expands PSLF to borrowers in the wrong 
repayment plan. We remain committed to fixing the errors of 
previous Congresses to help all borrowers. It is time to stop 
blaming the administration for the inaction and incompetence of 
the laws that were written by the Congress.
    I yield back.
    Mrs. Davis. Thank you, Dr. Foxx, and that really is an 
issue, an area for us to explore, because as we know so much of 
this takes part in ruling making. And at the same time both 
administrations I think had a role in that so it has got to be 
fixed. It is just not working the way it is.
    Ms. Jayapal.
    Ms. Jayapal. Thank you, Madam Chair. And thank you all so 
much for being here. I am grateful to all of you for 
recognizing the dire need not only to recruit teachers but also 
to retain them if we are going to provide our kids with the 
education that they need to succeed.
    And I wanted to focus specifically on the barriers to the 
people of color face to entering and remaining in the teaching 
profession. While half of public school students are non White, 
eight of 10 American teachers are White. And it is hurting 
student achievement because minority students perform better on 
standardized tests, have improved attendance and are suspended 
less frequently when they have at least one teacher of the same 
race.
    And the research shows that Black teachers are much more 
likely to recommended high achieving Black students for 
talented and gifted programs, virtually eliminating the gap in 
access to those programs. And I just want to take a minute to 
recognize my incredible colleague Jahana Hayes from Connecticut 
because I think she is the perfect example of what is possible 
if we were really able to eliminate some of the barriers that 
we see.
    So I wanted to start with you, Dr. Daire. I saw you 
recently participated in a task force or diversifying Virginias 
educator pipeline. And it revealed that one of the main factors 
hurt, barring people of color from entering the teaching 
profession is the length and cost of the teacher preparation 
pathway compared to salary.
    Could you just expand a little bit on that and suggest how 
Congress could make a teaching career more financially feasible 
for people of color?
    Mr. Daire. Thank you so much for that question. That task 
force, one of the recommendations that came out of that task 
force was for Virginia to change legislation, to go back to 
allowing undergraduate teacher preparation programs. And we are 
excited that has happened, June 20 the first round of programs 
were approved.
    So at VCU we are actually starting five new undergraduate 
degree programs, because as you indicated in your question, you 
know, having candidates obtain a master's degree adds an 
additional cost that I think further exacerbates that 
difference that we are seeing in salaries.
    So I think being able to do that in terms of us having 
undergraduate degree programs, which then really positions us 
to strengthen and bolster teacher pipeline programs where we 
are partnering with our local community colleges and pipelines 
even going from our schools to community colleges to 
universities. I think we also have to look at the financial aid 
support, the student loan support, and I think as we look at 
integrating more culturally responsive practices, not only does 
it benefit the students, I think it also benefits the school 
climate where you have more educators that are more culturally 
responsive to each other, which is one factor that has been 
identified in terms of attrition of under represented minority 
educators.
    Ms. Jayapal. Very important, thank you. I wonder Mr. 
Brosnan if you wanted to add anything to this because you, in 
your testimony, talked about the cost of higher education and 
the importance of protecting public service loan forgiveness, 
other things. Do you want to add anything to that?
    Okay.
    We also know student debt is a factor and there is an 
unprecedented and unequal level of student debt among Black 
graduates that makes it even harder for them to be able to 
afford to live on a teacher's salary as it is today. On average 
before they have even earned their first dollar, Black college 
graduates already have $7,400 more student loan debt than White 
graduates.
    Dr. Daire or Ms. McManus, I saw you responding to that, if 
either of you want to speak to that. Dr. Daire would you like 
to start?
    Sorry, I didn't ask the question. What can Congress do 
specifically to address student debt for teachers?
    Mr. Daire. Well, I think that looking at addressing some of 
the challenges that has been identified and the implementation 
or the servicing of the student loan forgiveness programs, I 
think that is going to be an important consideration.
    We also know that more students of color are actually going 
to for-profit universities, which are costing a lot more and 
increasing the student loan debt. And so I think that is 
something that we all need to look at.
    I think in terms of higher Ed, we need to look at more what 
are the standards--I shouldn't say standards, but what are the 
processes, and how can we be more responsive and understanding 
to some of the differences and challenges that we see in under 
represented minority students so we can increase that pipeline.
    Ms. Jayapal. Thank you.
    Ms. McManus, did you want to add anything?
    Ms. McManus. I am not that knowledgeable about student loan 
debt or loan forgiveness, but I can say that I think States and 
districts need to also in Federal Government look at teacher 
salaries in general so that they as they do need to pay back 
loans, if they have accrued them, they have the means to do so.
    Ms. Jayapal. Great. Thank you very much.
    I yield back.
    Mrs. Davis. Thank you, Ms. Jayapal.
    Mr. Comer.
    Mr. Comer. Thank you very much and let me begin by thanking 
you all for your service in public education. I am a big 
proponent of public education. My wife and I went to public 
schools, our kids are currently enrolled in public schools. So 
I think that is a very important role that government plays, 
especially State government is providing the funding for public 
education.
    As I talked to a lot of teachers in my congressional 
district in southern Kentucky, the big issue--one of the many 
issues they have is obviously teacher shortage, one of things 
that we are discussing today. And I wanted to ask Mr. White 
when--what can we do to attract more teachers into the major 
shortage areas where we have with respect to STEM in the 
classroom?
    Mr. White. Thank you, Congressman. I want to say two 
things, I want to echo the sentiments of Mr. Brosnan and others 
on the panel today who have emphasized that our teacher 
shortage it as much if not more a retention problem than a 
recruitment problem. And I think largely that is about our 
practice as educators, are we aware of what is happening in our 
system, are we aware of what is running through our teacher's 
minds and are we talking to them about their plans.
    However from a policy perspective I do agree with you, 
there need to be changes. And I think we would be naive. In my 
State, somebody can go and work at Exxon Mobil in Baton Rouge, 
and work in east Asia, and work in sub-Saharan Africa and all 
do it for a salary three times, just out of college, what a 
teacher would make. It is naive for us to think that we can 
compete with that job if we are not making legitimate changes 
to the finances of it.
    And the States are going to have to step up and have to 
change the way they distribute our tax dollars within the way 
we compensate educators, if we are going to legitimately 
address that 21st century challenge you are describing.
    I will qualify this by saying I am an English teacher. In 
my State, as in most, we don't have a shortage of English 
teachers. English teachers should be able to acknowledge and 
other teachers like us that STEM is a different beast, that 
those teachers with those qualifications are able to compete 
for a different set of jobs, and that our school systems and 
States need to step up and find a way to finance an adequately 
competitive salary for STEM majors.
    Mr. Comer. Right. Let me make sure I understand this. Who 
establishes the curriculum for a preparation program? And are 
there particular skills you think those programs should do a 
better job of teaching?
    Mr. White. It is a combination of the State boards of 
education, the boards of regents and the universities 
themselves, as well as Deans in colleges of education. So it is 
different pieces of the curriculum are delegated to different 
entities.
    But if I had to pick one, as an English teacher I think I 
can say this, the basic science of teaching reading is 
something that every teacher in America should understand. And 
the basic practice of teaching the foundations of reading to 
nonreaders is something that everyone should understand. And we 
all should bear responsibility from Congress on down for the 
fact that there are many, many, many teachers in America today 
who have never really been prepared to teach a child to read.
    Everyone who is interested in education policy should read 
Emily Sanford's reporting on teacher preparation and why 
America's teachers too frequently do not know how to teach 
children to read.
    Mr. Comer. All right. One of the challenges that I think 
Mr. Brosnan or one of panelists mentioned in attracting and 
retaining teachers is I think I understood this right, my 
teachers in Kentucky say this, the excessive amount of degrees 
or certification or continuing education that is required to be 
a teacher, is that too much?
    As we look forward, look ahead into the future of 
education, obviously we have to have a good supply of quality 
prepared teachers, but are we requiring too many degrees? Is 
that costing too much money, running up their student loan 
debt? Is it necessary, Mr. White, to have all of the degrees 
that a lot of teachers are required to have before they ever 
begin teaching.
    Mr. White. Well, I don't begrudge any educator for pursuing 
continued education. I think everybody on this panel has 
evidence of that, some more than others, perhaps. But at the 
same time, I do think that we need to recognize as States and 
certainly here in Congress as well, every time we levy one of 
these requirements on to a school system or onto a school we 
are putting in financially on the shoulders of educators. And 
yes, it is true that very often schools systems have found a 
way to remunerate them in exchange for that. But for our 
youngest teachers in particular, it can be an up front barrier.
    And we need to ask ourselves, if we have these evaluation 
systems that we fought so hard to create and we evaluate an 
individual repeatedly year after as effective for their 
children, why would we in government come back and say, no, you 
have to take another step or I wouldn't allow to you do this 
anymore.
    Mr. Comer. Right. I agree and appreciate you all's 
testimony and look forward to working with you in the future.
    Mrs. Davis. Thank you Mr. Comer.
    Ms. Hayes.
    Mrs. Hayes. Thank you, Madam Chair. It is so great to start 
my morning in a room full of teachers. You have no idea how 
much I needed to see you today. Thank you all for being here. 
And special shout out to Mr. Brosnan who is from Bridgeport, 
Connecticut. I know the area well. And I think the committee 
should know that there are two national teachers of the year in 
the room today. We have Terry Dozier who was the 1985 National 
Teacher of the Year, a fellow history teacher over there. So it 
is great to share the space with you this morning.
    I am so happy that we are having this hearing are about 
teaching, because what I like to tell people and what I--
teaching is not mission work, you know we work really hard. It 
requires expertise, commitment and preparation. And every 
educator knows that these single most effective driver for 
student success in outcomes is an effective teacher. Everybody 
knows that. It is the teacher that stands in front of them.
    But today I want to talk about teacher recruitment and 
retention. I spent the last four years of my time in the 
Waterbury public schools working on minority teacher 
recruitment and retention. So much so that our governor at the 
time created a task force and our State passed legislation to 
address this very issue of getting teachers who lived in the 
communities to consider working in those very same communities.
    I am a first generation educator. And many of my colleagues 
came from education families. When you talk to people they say, 
my mom and my grandmother were a teacher, my father--and there 
were usually more than one person in the family who were 
teachers. So now as we are trying to attract this first 
generation educators we have to change the conversation.
    My daughter is now a teacher. And I have to tell you she 
works in a school district where she is one of two minorities 
in her school. So how do we continue to support people after we 
get them into these communities? And it is not just about the 
money. Anyone who goes into this profession goes into it 
because they have a true and a genuine investment in children.
    So my first question is for Ms. McManus. Do you have any 
thoughts on how we can infuse the educator pipeline? We are 
hearing today about at the college level and then after, but I 
know that we are the only profession where kids have a 12 year 
interview. There is 12 years where we are standing in front of 
them and they are considering how they feel about teaching as a 
profession. So what can we do before they even get to the point 
where they are making the decision in college to choose those 
classes?
    Ms. McManus. Thank you. So in Hillsborough, we are very 
homegrown. I mean eighth largest district in the country and we 
have students that we have not traditionally done a great job 
of cultivating early on in their careers to become future 
educators. And so we have a task force locally as well for 
looking at our high school students and really encouraging them 
to go the route of education, even before they leave high 
school they know that is going to be the track that they are 
going to take.
    Those are the same teachers and the same teachers, those 
are the same people that are going to be leading our schools in 
the future. And so the important component is that as we 
identify who those people are that we continue to cultivate 
those relationship from the time they go into their colleges of 
education to the time they enter the system and continue to 
cultivate those relationships and those skills of our students.
    Our leadership pathways, we are very much focused on 
recruiting diverse leaders into our principal pipeline. And 
that is coming from the teachers in our classrooms. And so we 
are very targeted, our recruitment efforts. As we reach out to 
leader teachers of color in hopes that we can help encourage 
them to become the future leaders.
    And so it starts from high school. It starts probably from 
middle school. That we start to help people down that path--
    Mrs. Hayes. I was going to say that.
    Ms. McManus. In probably elementary school. How many of us 
want to be teachers and we were encouraged to go a different 
path. We need to cultivate students from the time they are 
young into the time they go into College to make those choices.
    Mrs. Hayes. Thank you. I appreciate you saying that. I 
actually did a lot of work in that area. I had a young educator 
society club in the high school, but we decided to introduce it 
first in the middle school, and then even in the elementary 
school allow students to shadow teachers. Because what ends up 
happening is they hear all of the negative parts of profession, 
but don't see the joy that comes with teaching.
    In my remaining time, Mr. Daire, we heard a lot about 
alternative routes to certification and it is not just about 
cost, these are sometimes second career educators, art 
teachers, technical teachers. Can you tell us what Virginia has 
done to ensure that those online and alternative programs are 
of the highest quality and producing the best and most 
effective teachers?
    Mr. Daire. In terms of the alternative certification 
programs, within the State, unfortunately I don't have a lot of 
detailed information on those State level requirements, but 
programs do have to provide a significant amount of data to the 
State in terms of the outputs and the quality of the teachers 
that are being produced.
    Mrs. Hayes. Thank you. My time has expired and again thank 
you all so much for being here.
    Mrs. Davis. Thank you, Ms. Hayes.
    Mr. Smucker.
    Mr. Smucker. Thank you, Madam Chair. I am not sure how to 
effectively follow the national teacher of the year and asking 
questions about teachers. But would like to congratulate Ms. 
Hayes obviously on that wonderful achievement.
    We should always celebrate and have deep respect and 
gratitude for those who choose the profession of teaching. They 
obviously are having an impact on our future. And so we thank 
you Ms. Hayes and everyone else who has chosen that profession.
    I was particularly interested in, Mr. White, in what you 
are doing in your State. I served for a brief amount of time as 
the chair of education committee in the State senate in 
Pennsylvania. And we spent some time looking at effective 
programs in other States as well as in other countries 
measuring what we are doing in the United States compared to 
other countries. And it always came back to great teachers and 
great principals. And we must do everything that we can to 
support them to ensure that they are prepared and that we are 
supporting them throughout their job.
    One of interesting things that I heard you say which was 
one of the takeaways for me in the course of those 
conversations is the idea of a mentor. And then the other was 
in some other countries they spend more time in preparation 
rather than actual classroom teaching was one of the takeaways 
we got back. And I am just curious, have you incorporated that 
into your program at all?
    That is in terms of working with a mentor, but maybe it is 
a classroom period during the week, maybe it is at the 
beginning of everyday, just finding more time to allow teachers 
to sort of plan and interact with their fellow teachers?
    Mr. White. Yes.
    Mr. Smucker. Has that been something you looked at all?
    Mr. White. Yes. And I think that when you look at 
comparison between our country and for example how the school 
systems that Congress funds across the country spend say Title 
I dollars, and how the most highly effective systems of 
educator preparation and the teacher workforce say in South 
Korea or in Singapore. And you look at the difference in how we 
spend our dollars.
    We have spent on radical reduction in class size and an 
increase in our workforce, they have spent on to some extent 
more time with students, but really Congressman as you say more 
time with one another. Our teachers somewhat by virtue of the 
way we spend somewhat by the virtue of the way we manage simple 
do not have structured into their day enough time together.
    That is enough time with mentors, pre service and in 
service and it is enough time as part of a well structured team 
inquiring into how as well students are doing and what it means 
for our practice.
    And as a consequence you get what some of us on the panel 
have described earlier, which is you have a retention problem. 
If teachers had that system that prioritizes structured time 
with one another, one-on-one, and in teams I believe deeply 
that our retention problem would--
    Mr. Smucker. I think it is something that States--I am 
sorry to cut you off, but I think it is something that States 
should be looking at as they look to improve their system. You 
talked about an evaluation system of the teacher preparation 
programs in the State, you are in the midst of I think of a 2-
year pilot program you described in your testimony. And I am 
just interested in knowing what you have learned during that 
process and how have you--how has the system being changed as a 
result of that?
    Mr. White. Well, I think as in any accountability system 
there must be a clear definition of what you want programs to 
achieve. And I unfortunately believe between the K-12 laws and 
the higher Ed laws of State and Federal government, we are 
telling our institutions of higher education and our school 
systems we go achieve 10,000 things. They should be achieving 
A, B and C.
    And in our State that is quantifiably effective teachers 
placed in the places that need those teachers most and 
practices such as I described before, teaching teachers to 
teach reading that are valuable to students. If you can do 
those three things, you are going to do well in our system.
    And consequently we have seen institutions step up and make 
real programmatic changes to focus on things like the 
foundations of reading and also to start prioritizing 
placements in communities where oftentimes educators have not 
gone to be prepared, such as--
    Mr. Smucker. I want to get one additional question in. I am 
sorry. You talked a little bit about Title II, and I am 
interested in knowing to what extent you, in your program, 
interact currently with Title II the Higher Education Act, what 
impact is it currently having on the systemwide improvement in 
Louisiana?
    Mr. White. Well we interact with it to the extent that I 
don't believe it is a strategic driver of change. Unlike Title 
II of ESSA, I don't believe it is a strategic driver of change. 
Why? It requires data, obscure data that distract our attention 
from the things that really matter.
    And two, it funds narrow partnerships between a local 
university and a local school system, rather than Statewide 
plans for change. You are not getting the most for your 
investment by way of Title II HEA.
    Mr. Smucker. I think it is a message that is loud and clear 
and we should certainly take that into reconsideration as we 
look at reauthorization.
    Thank you.
    Mrs. Davis. Thank you, Mr. Smucker.
    Ms. Shalala.
    Ms. Shalala. Thank you very much. I actually have spent 
some time in schools of education teaching, and particularly 
teaching Teach for America students most recently in their 
master's program. And I am very interested in the retention 
issue, but I think the better model for residency is actually 
nursing, which has moved into residency programs.
    But if you look at nursing curriculum, they introduce 
clinicals much earlier in their curriculum, rotating students 
through curriculums, almost from the beginning of their nursing 
education. That helps them, but the key--and if you read the 
literature, as all of you probably I am sure have in teacher 
education, it is not just doing the residency, it is whether 
the mentorship stays for a number of years afterwards. Because 
you can't learn how to teach in 1 year, I certainly didn't 
learn how to teach in 1 year, even with the best kind of 
intensive mentorship. So it is the number of years afterwards.
    The number of schools of education actually stay with the 
students. And that is they have master teachers that actually 
stay with their graduates for a number of years afterwards, and 
that makes a difference on retention. But it can't be just 
that, it has to be salary, all of those elements that are 
coming in.
    I have a particular interest in the question of why we are 
putting the least experienced teachers in the classroom. Mr. 
White, you have had experience with Teach for America and 
obviously desperate to find some people that will teach in the 
most challenging schools. We put a lot of very inexperienced 
people into classrooms.
    And the question is what are our strategies to avoid that 
other than trying to pay senior teachers more? What are the 
incentives to try to get our most experienced people in the 
classroom, in the places that are the most challenge for us?
    Yes.
    Mr. White. Thank you. Well, I think first it does start 
with money. And I do think we need to be real, it is a 
different job. Teaching in some of the schools that Ms. McManus 
was describing, they certainly exist in New Orleans, and Baton 
Rouge and Shreveport is a different job. It does require a 
different level of compensation. And so there are districts 
like Shreveport, Louisiana that have stepped up to do that, 
$15,000 per year more in the hardest to staff schools.
    But also you need leaders to go, you can't just be saying 
teachers you go, you need your most effective leaders to go. 
Until the leaders go, and I believe financial incentives helped 
there as well, you won't create a culture that says we believe 
this is a promotion, this is a step up to take the hardest 
challenge the district has to offer.
    And so I think school systems can achieve what you are 
describing if there is a cultural shift, because not just the 
low people in their first years of teachers or what have you 
are doing it, but the senior most, most experienced people are 
doing it.
    Ms. McManus. I would like to comment on that as well. We 
formed in Hillsboro a Turnaround Leadership pathways and it is 
exactly for the reason of taking our very best leaders to move 
to some of our most under performing schools in some of our 
under served communities. Our students in those schools are 
brilliant. They need the right teachers, which the only way to 
really create that environment where teachers can achieve 
success is through the leaders.
    And so we have done exactly that, made it attractive for 
our very best leaders to move into our schools and that is how 
we attract great teachers and that is how we retain them as 
well.
    Ms. Shalala. Any other comments from any of the other panel 
members on retention?
    Mr. Daire. Thank you. I think in terms of retention and I 
agree with my panelists that we do have to look at ways of 
having our teacher candidates get into the schools earlier. And 
I think what you stated what the nursing model I think is a 
great example and that is what we are trying to move towards, 
to be able to get our students, particularly in urban high need 
schools earlier.
    I think another point that we need to consider is that when 
we look at the hardest to staff schools and the poorest 
performing schools it is also the schools where there is a high 
concentration of poverty with school children that are subject 
to significant amount of problems, but we need to do a better 
job of training our educators to be more effective with all 
students, particularly those living in poverty with under 
represented minority students integrating more, culturally 
responsive practices and things of that nature, which I think 
is going to contribute to the retention because those folks are 
going to be better prepared for those environments that they 
are placed.
    Ms. Shalala. Let me also note that one of challenges is 
State school boards changing the requirements. And if you look 
at most schools of education their teacher preparation section 
they note that you should be prepared if there is a change in 
the requirements and they put the burden on the students as 
well as on the individual schools and that is really very 
difficult for many people.
    Thank you very much. I yield back.
    Mrs. Davis. Thank you, Ms. Shalala.
    And Mr. Guthrie.
    Mr. Guthrie. Thank you very much. I appreciate my colleague 
bringing that up that line of questions, Dr. Shalala. It was 
her credentials. That is important. And actually the one 
question I was going to ask I will get to that in a second. But 
I was in general assembly in Kentucky, and study schools that 
were in challenging environments, be it Appalachia, be it 
Louisville. And I will tell you, if you go into a school that 
is beating all expectations and we want them all to beat all 
expectations, it was a dynamic principal.
    It absolutely you could feel it in the principal, you could 
see it in the principal and the staff, but the principal led 
the staff. You had to have a great group of teachers but you 
had to have a great principal that was able to be the school 
leader and just owned it and was part of it and moved it 
forward.
    One thing, Mr. White, I was interested in the believe and 
repair residency model that you have. I know that you do, it is 
for college seniors to gain a full year of practice experience. 
Have you thought about reaching into like the high school 
level, the high school seniors to give them kind of a taste of 
what teaching is so that it can inspire people to be in careers 
of teaching?
    Mr. White. Yes, absolutely. And I think Ms. McManus spoke 
to this a little bit earlier as well. I couldn't agree more 
than it has to happen.
    We actually just started a State chapter of an organization 
called educators rising which provides across States for a 
short course sequence within high schools that can be done 
either as an elective or as part of their core curriculum that 
gives students advanced standing in colleges of education so 
they can get some of their foundational course work out of way.
    It is high school students, it gets them some clinical 
experience as well and more than anything get them exposure to 
as Congresswoman Hayes said the very positive aspects of our 
profession not just the challenges of our profession.
    Mr. Guthrie. Okay. Thanks very much.
    And alternative certifications interested in that as well 
because the teaching profession is very difficult and we have 
great teaching schools in Kentucky, but sometimes somebody 
comes with that right expertise or that right like a chemical 
engineer wants to see chemistry of trying to change careers. An 
electrical engineer wants to teach math, we see that, or 
somebody has a great drama history, wants to come and teach 
liberal arts in a high school or arts in a high school.
    And when I was in general assembly we found it was easier, 
I have to say this right, it was easier to get a college credit 
for a high school course than a high school credit--so if you 
are at Bowling Green High and you took physics at Western Tech 
University, it was more difficult to get that credit at the 
high school because the physics professor, the Ph.D. in 
research at Western was not a certified teacher.
    And so we had to break through some of that. And sometimes 
you do things in legislatures and they have better results and 
even anticipated doing. And we have people, they talking about 
now cost of college, we have people now because we came up with 
an alternative credentialing to make sure that college 
professors were certified teachers for purposes of high school 
credit. And we now have people graduating from high school with 
associate degrees. I never saw that coming. I never thought 
people could get 2 years of associates along with high school, 
but we have that happening.
    And so would you talk about Louisiana or do any of you want 
to talk about your alternative certification models? I am sure 
we have absolute quality in the classroom, but sometimes there 
is it that right person with the right experience that is a 
good leader and can come into a high school classroom.
    Mr. White. First, Congressman, I agree with you. I run into 
the circumstances too we have people with wonderful higher Ed 
credentials that can't get into our K-12 system. It is 
ridiculous and we should all lower the barriers to that kind of 
transition happening.
    At the same time we need to be real with the fact that too 
often our alternative certification models are not that. It is 
an empty special Ed classroom in a rural community where there 
is just nobody to teach. And somebody is coming in very cold, 
with very limited experience, and we are putting them in front 
of children who need their expertise and skills very badly. So 
we have a balance, we have to have a balance between the right 
barriers and the right preparation models and reducing barriers 
so that there is more of a fluid process. I think the way you 
do that is by requiring serious, serious support for all 
alternative certification candidates when they come in.
    And I described how we have a rural parish or counties, we 
call them parishes in Louisiana, that are piloting a model 
where every single day, every alternative certification teacher 
co-teaches with a State certified mentor. They coteach their 
class for at least one period per day, which both is cost 
effective for the teacher and the school system, but it 
provides the teacher modeling and support that sadly was at 
least too rare in our alternative certification programs 
beforehand.
    Mr. Guthrie. Anyone else want to comment on that?
    Ms. McManus. Do you want to comment on that?
    Ms. McManus. Yes.
    Mr. Guthrie. Yes absolutely.
    Ms. McManus. Yes. We have an alternative certification 
program in Hillsborough, but I will tell you, and we do get 
some great teachers, because of the intensity of the support on 
the job. The job--the role of a teacher and leader it is an 
evolution to become great at your craft. And where you can get 
the before job experience in classrooms and then you can get 
the on the job support after entering the role, that creates 
the ultimate win for our students.
    Students teaching is way more than content, it is so much 
around the systems and the management in your classroom and how 
you get to know every single student and some folks come in 
without that and then they struggle.
    And so I think, I mean, alternate certification program is 
working because there is a teacher shortage and we do have to 
look at every possible avenue to get great teachers, but the 
intensity of the support mentoring and for time over time is 
critical if you are going to come in lacking some type of pre 
service support.
    Mr. Guthrie. Thank you for those answers.
    I yield back.
    Mrs. Davis. Thank you very much.
    Mrs. Lee.
    Mrs. Lee. Thank you, Madam Chairwoman. And thanks for 
having this important discussion.
    You know, in this committee we talk a lot about student 
debt and certainly that is something that is weighing in this 
country with about $1.5 trillion in student debt having 
incredible consequences not only in terms of student's ability 
to pay it back, but also in terms of their career choices.
    And then when we talk about recruiting effective teachers 
in the overwhelming majority of college students are then 
forced to take on debt. And in fact those entering the teaching 
profession on average take on about $20,000 in debt for a 
Bachelor's degree and $50,000 for a master degree. And then 
despite this investment mid-career teachers can expect to earn 
about 30 percent less than similar credentialed mid-career 
professionals.
    I would like to ask Dr. Daire, can you speak about the 
importance of increased Federal investments in service 
scholarships and loan forgiveness programs in supporting a 
stable and strong teaching workforce?
    Mr. Daire. I think they are critically important, 
particularly when we consider the teachers who are even 
interested in going into education for the sole purpose of 
going into an urban high needs schools. Those tend to be more 
underrepresented minority students, students who have left 
economic ability to pay for University. So I think it is 
important for us to continue those financial aid programs, and 
Pell grants, and those student loan programs.
    When we look overall, we don't do a good job as a Nation 
educating our bottom 50 percent SCS students. And I think that 
is critically important, not just in education. I mean we need 
that for the teaching profession, but overall we have to find 
ways to really support students who are at the lower income 
enabled in order to access higher education and especially in 
the teaching profession.
    Mrs. Lee. Thank you. That actually plays well into my next 
question regarding diversity and the teaching core. And this is 
such--I come from Las Vegas, Henderson, Nevada. And in Clark 
County district we always struggle in hiring teachers.
    In fact last year we had to hire close to 2,000 teachers in 
1 year. And we have a student body that represents 75 percent 
students of color, over 50 percent Latino students, that we 
only have 11 percent Latino teachers, 14 percent African-
American students with about 7 percent African-American 
teachers. I know we know the studies that link student 
achievement with the representation of diversity in the 
teaching forces.
    Fortunately, I also represent three public colleges who are 
minority and Hispanic serving institutions, UNLV, Nevada State 
College, and the College of Southern Nevada. I am proud to say 
that UNLV is one of the top five most diverse universities in 
the country.
    Mrs. Lee. But given that, I wanted to ask you and Dr. Daire 
or whoever wants to, how can we leverage the tools of the MSI/
HSI programs to build a core teachers that is aligned to the 
socioeconomic characteristics of a student population.
    Mr. Daire. Well, I think we have to really look at pipeline 
programs that get into the high schools. What Congresswoman 
Hayes said about the 12 year interview, I think that is 
critically important that we have to--and this hasn't been 
talked about here, but what is the experience that 
underrepresented minority students are receiving in the 
classroom. And is that interview process one that is likening 
them to want to become a teacher? And so I will add that 
component because that has not been discussed. And I will let 
some of the other panelists address some of the other factors.
    But we really to start early with our students, because if 
we look at strategies once they are in college, we have missed 
a large percentage of students.
    Mrs. Lee. Great. Does anyone else want to--
    Mr. White. I would just note we haven't discussed today the 
fact that there remains an achievement gap in post secondary 
achievement between racial minority and other students in our 
country.
    And if there were more schools like Georgia State 
University for example that had eliminated that completer gap, 
then you would have a much larger percentage of the college 
graduate population that is representative of the student 
population in our public schools.
    Mrs. Lee. Great. Thank you.
    I yield the remainder of my time. Thank you.
    Mrs. Davis. Thank you very much.
    Mr. Watkins.
    Mr. Watkins. Thank you, Madam Chair. Thank you all for 
being here. I appreciate it. I am the older brother of a 
teacher, son of a teacher, and grandson and all of this is so 
vitally important.
    My question is for Mr. White. One of the challenges we hear 
about is finding and attracting good students to enter into the 
teaching profession. Has Louisiana addressed these standards, 
knowing that it is a balance between their capabilities, as 
well as the needs of call it the school system?
    Mr. White. I think it is first a matter first of 
professionalizing the path in. Undergraduates are talking with 
their friends who are aspiring lawyers or aspiring nurses or 
what have you. And seeing them get exciting experience in the 
work setting. And yet in teaching too often that experience is 
limited to a short internship.
    We have to professionalize the path into our profession, 
and we have to do things like many of my panelists have 
discussed today bringing that into the high schools.
    Finally, though, we are really for the first time in some 
time reaching a point where it is not just that teaching is a 
poorly paid profession relative to other bachelors-requiring 
jobs, but it is at the rate of escalation in our competitor 
fields is now increasingly out pacing the rate of escalation 
within the salaries of our own field and we have to be real 
about that.
    Debt in some form is going to continue to exist for good or 
for not. And it is going to continue to be somewhat the burden 
of college graduates and their families to repay it. And coming 
into our profession and saying, you could either make $100,000 
or you can make $35,000, and then saying what is attractive 
about our profession is completely counterintuitive. States and 
local governmental entities need to step up and find a way of 
financing better the front end compensation of people entering 
the teacher profession if we are ever to make it legitimately 
competitive in the 21st Century.
    Mr. Watkins. Thank you. Switching gears, Mr. White, the 
evaluation system, how has that changed during the first phase?
    Mr. White. Well, we have piloted our evaluation system in 
three areas, are your graduates effective for their students, 
are you placing students in rural and other settings where 
there are graduates where they are badly needed, and third are 
your practices actually changing? Is the way that you are 
teaching teachers to teach improving? And I think of all areas, 
that is the area we have seen the greatest improvement.
    We have been piloting an onsite review model, modeled after 
the United Kingdom and what they do for their colleges of 
education. They are able to be onsite giving feedback on a 
regular basis, through our colleges of education and our 
alternative programs. And I can tell you they are making 
changes in their practice. I have seen literally in 2 years 
institutions improve from say a score of 2 out of 4 to a score 
of 3.5 out of 4, which is tremendous progress on the same 
instrument.
    So they are improving the way they teach teachers to teach.
    Mr. Watkins. Thank you. And Madam Chair, I yield the 
balance of my time.
    Mrs. Davis. Thank you very much. And we now move to Ms. 
Bonamici.
    Ms. Bonamici. Thank you very much. Thank you to the Chairs 
and the Ranking Members. And thank you to our witnesses. I am 
glad we are having this important discussion today about how we 
can better support our Nation's educators.
    I just want to follow up on my colleagues' comments and the 
testimony about professionalizing the profession or making it 
more attractive to more people.
    One of the things we can do is we can push back on all the 
public school bashing that we hear in our communities. That 
doesn't help people who are just trying to decide what 
profession to enter. So I invite everyone to join me in that 
effort to talk about the great opportunity and the importance 
of public education.
    In my home State of Oregon, and I know Representative 
Jayapal talked about diversity, but we have about 40 percent of 
our students are students of color, but 90 percent of teacher 
the workforce is White. And as the chair of the Civil Rights 
and Human Services Subcommittee, I certainty recognize the 
importance and value of having diverse educators in classrooms.
    Research shows there is a positive correlation between 
having a teacher of color in the achievement in students of 
color. And as we continue to advance equity in public 
education, we have to make sure that we address that lack of 
diversity both in the teacher and school leader workforce and 
provide support for and opportunities for teachers of color.
    Dr. Daire, nationally the majority of public school 
students are children of color. Yet only 20 percent of incoming 
teachers are persons of color. In northwest Oregon the gap is 
even larger. Beaverton and Hillsboro--that is Hillsboro, 
Oregon. I know there is another Hillsboro--the third and fourth 
largest school districts in Oregon are now majority students of 
color, but only a fraction, about 12 percent of teachers in 
those districts, were teachers of color.
    And the school districts have actually joined with two 
other districts and launched a countywide Washington County 
Diverse Educator Pathway to address this issue and increase 
diversity and retention of teachers of color throughout their 
created educator pathways. And we know that one of barriers to 
increasing diversity is the cost of college.
    And research shows that teachers of color are often unable 
to afford a high quality preparation without supports like 
grants, aid, and information gathered from FASFA shows that a 
higher percentage of Black students, more than students from 
any other racial group have no expected family contribution.
    Can you talk about how making college more affordable could 
help diversify the profession?
    Mr. Daire. I think it is going to be critically important 
that we address that. I think the data that you articulate is 
reflective of what we see in Virginia. And we need to continue 
to invest in the different supports to help offset those costs, 
looking at the student loan forgiveness, looking at Pell 
grants, looking at other incentives.
    Another issue in Virginia is the cost of licensing tests, 
which can be anywhere from $300 to $500 for students to take. 
So there are some other barriers that even exist after the cost 
of education.
    And I think when we look at those numbers, that is not 
going to change overnight. So we have to do a better job in 
ensuring that the White teachers are receiving the necessary 
training to work with students living in poverty, to work with 
students who are culturally diverse from them.
    Ms. Bonamici. Absolutely. Absolutely. And I know with 
college affordability we need short-term solutions and long-
term solutions. And I am getting ready to reintroduce the 
SIMPLE Act, which will get and keep more student loan borrowers 
and income-driven repayment so the borrowers who do take on 
debt, for example to pursue high quality teacher preparation 
programs can get into income-driven repayment.
    Ms. McManus, in addition to increasing diversity among our 
Nation's teachers, we know that we need diversity in our school 
leaders as well. So how does your school district make sure 
that it is recruiting school leaders of color? And why is that 
important to you? And what can Congress do to support those 
efforts?
    Ms. McManus. It is very important that we also have 
diversity in leadership and we have heard the research as to 
why. Our teachers--our students need to see teachers and other 
adults that look like them in our schools. And also, diversity 
makes us smarter and stronger. And we need to have diverse 
perspectives in every one of our schools.
    In Hillsborough again we recruit heavily into our next 
layer of leadership from our teacher ranks. And so we work 
across divisions to try to start at the teacher level, because 
those are the people that then we targeted, performed targeted 
recruitment efforts to then move into leadership positions. We 
started a partnership with University of Tampa, and that is to 
recruit leader--teachers of color into a master's program where 
we act--because a master's is required before you become a 
leader in Hillsborough, a school-based leader. We paid for half 
of their education so that we can have more leaders of color, 
have the opportunities for advancement in our district.
    Ms. Bonamici. Thank you so much. I see my time has expired.
    I yield back, Madam Chair.
    Mrs. Davis. Thank you very much.
    Mr. Grothman.
    Mr. Grothman. First of all, I have a comment for Mr. White. 
I think one of the problems--well, you mentioned the 
underpayment of teachers, and I will ask you to do a Google 
search a little bit when you get done here. I think a lot of 
those statistics don't take into account fringe benefits. And I 
don't think we are doing future generations any favor when we 
run down the occupation.
    I remember when I was in high school, one of the teachers 
got up in front of the class when I was a senior in high 
school, and I wanted to be a teacher, and ran down the 
occupation, and said how underpaid he was and blah, blah, blah, 
blah, blah. And so I thought, well, I am not going to be a 
teacher, just because my teachers are running me down.
    I recently talked to another student going to a very nice 
suburban high school in Milwaukee whose teacher went off, and 
said how underpaid he was, and ran it down. And I am sure by 
the time he was done, nobody in the class wanted to be a 
teacher.
    Someone over here, I can't remember which Congressman, 
said, we shouldn't be running down public education. And I do 
think this idea of running down the occupation of teachers 
being underpaid is not necessarily appropriate. And I would 
suggest you do a little bit of research when you take fringe 
benefits into account. I think you will find that teachers are 
not as underpaid as you think.
    Now next question I have, I will switch and go to 
questions. I read a book once, I wish I could remember the name 
about how to get the best people in teaching. And they felt one 
way to do that was to make is more of a high status profession, 
not cost, but high status. And they talked about--I think the 
two countries they talked about were Finland and Poland.
    And there what they had done is they had tried to grab the 
best students, I don't think they had ACTs or SAT scores in 
London or Poland, but whoever is doing the best on the 
standardized test and try to get them to go into teaching.
    I wondered if any of you know right now, as far as 
graduates from schools of education, where we are on SAT, ACT 
scores compared to the other schools and colleges.
    Mr. White. I will clarify my first comment for you briefly, 
Congressman. My point was precisely your point, which is that 
actually States invest significantly more on the back end of 
the profession through retirement systems that typically start 
early and are relatively lucrative relative to Private Sector 
accounts, rather than thinking about how do we target 
investments up front.
    It should be looked at that in a State like mine, 25 to 30 
percent of all State dollars go directly into retirement 
systems that are retiring people or compensating them 30 years 
after they start doing the job that we are talking about here 
today. So my point was at least related to that, not to make 
broadly the point that teachers are underpaid.
    Secondly, you are right relative to college as a business, 
relative to college of engineering, and in most cases relative 
to colleges of arts and scientists we have then given 
universities the ACT scores in Louisiana, the colleges of 
education of lower. However, there are exceptions to that. 
There are institutions where the college of education have 
competitive ACT scores with the colleges of engineering or the 
colleges of business.
    And I think it is in that variation that we with have to 
take a look at what are those places doing to, as you suggest, 
brand the profession as one that is fully competitive with 
those others. That is what they are doing and why you get that 
parity.
    Mr. Grothman. Thank you. I appreciate your answer. I 
obviously keep track of Wisconsin most because that is where I 
am from. And I know so many of the students they have to 
compete to get into the school of business, or the school of 
engineering, or the school of nursing. And it would be good if 
we had the same competition to get into the school of 
education.
    The next question I have, I enjoy being on the Education 
Committee in part because I have a lot of opinions on K-12 
education. But one of the things that intrigues me is the 
degree to which people come here and ask the Federal Government 
to dive into education. In my first term here we passed the 
Student Succeeds Act and the whole purpose of that was to get 
the Federal Government kind of out of education. And my local 
superintendents were pleased we passed the Student Succeeds 
Act.
    Nevertheless, again and again we have here instances in 
which people introduce bills and want the Federal Government to 
dive into education more and more. As far as diving into it 
with money, I think it goes up and down every month it seems. 
But right now the Federal Government is borrowing 17 or 18 
percent of our budget. And at least the State of Wisconsin went 
into this budget year with a big surplus. And I don't think 
Wisconsin is alone in that because States frequently rely on 
sales and income tax dollars for their budgets. And as the 
economy booms so does that.
    What can we do to educate advocates for the education 
system that they should start more at the State or local level 
and expecting the Federal Government to dive in? Not just with 
dollars, but apparently with rules and regulations as to how--
    Mrs. Davis. Excuse me, Mr. Grothman. You are leaving them 
no time to respond to you.
    So I am sorry, I am going to have to go to the next.
    Mr. Grothman. I can let them respond in writing.
    Mrs. Davis. And we try in how you do that also for the 
record, if you like. And perhaps there will be another 
opportunity. I will try and do as well. Okay?
    Mrs. Davis. Mr. Levin.
    Mr. Levin. Thank you, Madam Chair.
    Madam Chair, I am really concerned that the lack of support 
for teachers and school leaders is pushing teachers out of the 
classroom and causing a shortage of qualified educators. My 
wife Mary taught 6th grade for years, my sister-in-law is a 
special ed teacher. I am just completely surrounded by 
teachers, which is a beautiful thing. And so I know the 
importance of giving teachers the preparation, support, and 
resources they need to deliver the high-quality education our 
children deserve.
    Mr. Brosnan, what would you most like the Members of this 
committee to know about the teaching profession, and what are 
your recommendations for improving teacher preparation?
    Mr. Brosnan. Thank you, Congressman. I think the most 
resounding thing that you have heard from all of my fellow 
panelists, and I will reiterate, teaching is a wonderful 
profession. I absolutely love it and, clearly, my colleagues do 
as well. I think that should not be lost when we are talking 
about loan forgiveness and salary and other elements that we 
have discussed here today. We love education and we love 
working with our students.
    I think one of the things that needs to improve in 
preparation programs is, like my colleague, Mr. White, outlined 
for us, a longer period of residency so that when that 
perspective teacher and graduate becomes employed, they have 
had a full year of experience in a classroom. I think that is 
an excellent model, and I am so pleased to hear that it exists, 
even if it is a couple thousand miles away from me.
    Mr. Levin. That is great. All right. Thank you.
    I do want to go back to some of the financial issues, 
though. I think that if we are serious about supporting 
teachers, we need to address the issue of college affordability 
systematically as a Nation, and that has long been recognized 
as a barrier to both recruitment and retention of educators.
    Today, two-thirds of individuals entering the teaching 
profession must take out student loans. They have an average 
debt of $20,000 for a bachelor's degree and $50,000 for a 
master's degree, only to enter the profession that will pay 30 
percent less by mid-career when compared to similarly 
credentialed professionals in other fields.
    The America's College Promise Act, which I will be 
introducing next week, will create a partnership between the 
Federal Government and States to provide tuition and fee-free 
community college to all students. The proposal would also 
provide grants to cover a significant portion of tuition and 
fees for the first 2 years of attendance for low-income 
students enrolling at qualified minority-serving institutions, 
or MSIs. America's College Promise would mean providing support 
to all perspective teachers attending both community colleges 
and MSIs.
    So, Dean Daire, how would fully covering tuition at 
community colleges and MSIs help make teaching a more 
financially viable career choice? Do you think it would, and 
how specifically would it?
    Mr. Daire. Well, I think it would, particularly if we can 
tap those pipelines down into the K-12 schools and also ensure 
that we have strong articulation agreements between the 4-
year--between the 4-year universities and the community 
colleges, and also that we can ensure that at the community 
college level, as my colleagues have said, we have to really 
make sure that our candidates are getting experiences earlier 
in the classroom. And so I think if we do those things, I think 
it would definitely be quite promising to have that type of 
support for teacher candidates.
    Mr. Levin. At VCU and other similar institutions, do a 
number of people who go into the profession start out at 
community colleges? Is it a significant factor around the 
country--in Virginia and around the country, to your knowledge?
    Mr. Daire. Well, Virginia is a little bit unique in that 
for about the past 23 years, up until recent legislation, 
teachers for licensure had to receive their master's in 
teaching, and so that really created some challenges for strong 
articulation programs. That legislation has changed. VCU, we 
are introducing five new teacher ed undergraduate programs 
starting this fall, and some other universities around the 
State. There will be a second wave next year. We are really 
excited because that is going to really allow us to develop 
those articulation agreements with the community colleges and 
also programs that tap into high schools to create a solid 
pipeline.
    Mr. Levin. Wonderful. Thank you so much to all of you for 
your testimony today.
    And, Madam Chair, I yield back.
    Mrs. Davis. Thank you.
    Mr. Meuser.
    Mr. Meuser. Thank you, Madam Chair.
    Thank you all very, very much for being here with us today.
    I think we certainly all agree the importance of educators, 
of teachers. I think the good teachers in our lives, even as 
old as me, still remember very well. More importantly is the 
teachers for my children and their--how well and effective they 
are. And it is interesting how you can get a lot of information 
if you ask the right questions about teachers, which I have 
done for many, many years now, and you get a good understanding 
of a great teacher, a good teacher, and maybe a not-so-good 
teacher. So I want to talk about that a little bit.
    It is certainly imperative, I think we all agree as well, 
that we invest in the education of our students and in the 
educators, those who spend all the time with our children, our 
young people. Education is a top priority for any thriving or 
successful economy, clearly. It always has been really 
throughout history. So we are always trying to improve, of 
course. So innovation and tools, methods, curriculum options, 
what we should be providing and what options that they should 
have, as we now have a lot more vocational and career 
development even in high schools, which I think is very 
important. But I also think we need to innovate when it comes 
to teacher accountability and definitely pay, and that 
sometimes is a challenge.
    So, Mr. White, I want to ask you about how we evaluate 
existing teachers, and bring to note, in Pennsylvania--I am 
from Pennsylvania--our teachers are evaluated either by 
satisfactory or unsatisfactory, two categories. Teachers get a 
satisfactory rating if they are deemed as distinguished, 
proficient, or needs improvement. Only failing teachers are 
given an unsatisfactory rating. And I do believe that the 
satisfactory percentage is in the neighborhood of 97, perhaps 
98 percent.
    So I believe that States should be tasked with evaluating 
their teachers, but I am interested in your views evaluating 
teacher performance. I was in business for 25 years; regular 
feedback is very important. It helps you get better. You rely 
upon it. You need it. We were talking about principals a little 
bit earlier. I am sure the real good principals provide that. 
But I am not exactly sure what sort of innovation is taking 
place on that general feedback so teachers are focused on daily 
improving. Maybe you can speak to that, Mr. White.
    Mr. White. Well, I think States should be involved in it, 
and thanks in part to previous prompting from Congress, States 
are involved in it. But at the same time, States and 
certainly--certainly the Federal Government, but States as 
well, shouldn't dictate the terms of all professional 
development and feedback systems that are given in schools. You 
need to leave room for the customization and innovation you are 
describing. I will give you an example.
    The Teacher Advancement Program, or the TAP, system which 
exists in many of the States that are represented here today, 
is one of, from my perspective, the most comprehensive and 
effective systems of teacher improvement. It has its own 
evaluation rubric with its own set of values embedded in it for 
principals and other supervisors in schools to use. A State 
shouldn't substitute its judgment and say to a school system, 
you can't use an instrument like that has been proven time 
after time to be effective just because State government thinks 
it has got exactly the right way to do it. States should allow 
for common principles, but some distinctions as locals 
determine what is best in their local context.
    Mr. Meuser. So you are speaking from experience, so that is 
working, that is effective in Louisiana?
    Mr. White. Yeah, absolutely. I mean, teacher evaluation is 
a means to an end. It is a means to an end of student 
achievement. We should have better schools partially because 
schools have done the right thing, vis-a-vis, making their 
teachers better, and that means on some level that we as States 
need to insist that there are quantifiable outcomes and that 
teachers are getting feedback. But on the other hand, we 
shouldn't disrupt success and go to a school where things are 
progressing and say, well, now you need to do it our way. That 
would be an enormous mistake.
    Mr. Meuser. Do you ever consider student surveys of 
teachers?
    Mr. White. Absolutely. And there is a lot of evidence to 
show that, done well, that is effective. At the same time, it 
has got to be secure and trustworthy. It has to be both valid 
and reliable, and that is a big investment of State energies. 
But there is no question there are studies to show that 
students give consistently helpful and often valid and reliable 
feedback regarding teachers.
    Mr. Meuser. I am glad to see Ms. McManus nodding, because I 
think that is important. There seems to have been some--I have 
detected some resistance there, but I think that would be 
important.
    Well, we are all very interested in hearing what Congress 
can do to support your efforts.
    And, Madam Chair, I yield back.
    Mrs. Davis. Thank you very much.
    Dr. Adams.
    Ms. Adams. Thank you, Madam Chair and to the Ranking 
Members as well, for convening this hearing.
    And thank you to all the witnesses for your testimony. It 
has been very interesting and a little bit enlightening for me. 
I certainly agree with a lot of what has been said by my 
colleagues. I want to, first of all, thank you for your 
dedication to students, to children, and for your work in 
education.
    You might know that I was an educator at Bennett College in 
Greensboro, North Carolina, for 40 years. Started my career a 
little earlier than that working at a high school that is now 
closed, the Palmer Memorial Institute, which was the oldest 
college preparatory school for African Americans in a little 
city called Sedalia, North Carolina. It has since closed. It 
was actually founded by Charlotte Hawkins Brown, who was 19 
years old when she founded that school.
    My daughter is an assistant principal at a local elementary 
school in Greensboro as well. I am real proud of the work she 
is doing. So I do know firsthand the importance of having a 
school administration behind you. That is really key.
    I served in the North Carolina House for 20-1/2 years, and 
so education was something that we dealt with too. I am not 
real happy with all that North Carolina is doing in terms of 
really supporting public education as they should. I think we 
are stifling money away, and I don't know whether or not you 
are experiencing that in terms of vouchers and those kinds of 
things.
    So it appears that the support that we should be giving for 
public education is really not what it ought to be at some of 
our State levels, and I speak more specifically for North 
Carolina. So I know it is difficult when you are faced with 
tight budgets and you don't have all the resources that you 
need, and that is why I think it is all the more reason that we 
have to have strong Title II funding.
    And so having said that, Mr. Brosnan, if I could start with 
you, can you tell the committee why it is so important for 
teachers to have supportive school leaders, and cite any 
examples that you might have where the influence of school 
leaders has been a main determinant of whether a teacher is 
retained?
    Mr. Brosnan. Thank you, Congresswoman. I can speak from 
personal experience that in 14 years at the same high school, I 
had 20 principals.
    Ms. Adams. Wow.
    Mr. Brosnan. The final one that I had before my new role 
working with new teachers across the entire city is an 
excellent leader. He has stabilized the school. He has 
stabilized the attrition rate and the faculty. And having the 
promise of an excellent leader with superior interpersonal 
skills and the academic and pedagogical knowledge to lead a 
struggling urban school forward is incalculable.
    Ms. Adams. Thank you.
    Ms. McManus, what role do you believe effective school 
leadership plays in teacher retention?
    Ms. McManus. It is a key lever in retention. You just heard 
that. We expect a school to have great performance for students 
with 20 different leaders. That causes fragmentation in some 
other schools that are not in some of our environments that 
need the best. They have leaders that have stayed there for 
decades. That is an inequity. That is what leads to achievement 
gaps in our systems.
    And so having a great leader is the key lever, and that is 
why we have chosen to invest in leadership so strongly in 
Hillsborough through a strong principal pipeline, because we 
should be able to avoid that kind of scenario when you actually 
identify leaders based on a common set of standards and develop 
them along that path. We should not have that kind of turnover.
    Ms. Adams. Okay. So, you know, we have heard a lot about 
the difficulty that teachers and school leaders of color have 
in staying in the workforce due to fiscal issues, but I am also 
interested in whether the culture of our education system is 
tailored in a way that makes their jobs easier. And can you 
speak to the emphasis of any that you place on mentoring for 
your teachers and school leaders of color and what sort of 
induction strategies that you implement when new educators of 
color come aboard? I want to ask Dr. Daire, and then any other 
person can respond.
    Yes, sir.
    Mr. Daire. Thank you for your question. We do need to 
support stronger induction programs, and that is something that 
we are doing at VCU, is that we are going to be providing that 
induction support for our graduates who are teaching in Title I 
schools for 2 years after they are finished. And this is really 
modeled after our Richmond Teacher Residency program which we 
have seen success in that area.
    Ms. Adams. Madam Chair, I am out of time. I will have to 
yield back.
    Mrs. Davis. Thank you.
    Mr. Thompson.
    Mr. Thompson. Thank you, Madam Chair.
    Thank you and the Ranking Members for this hearing--joint 
hearing. Thank all of the Members of the panel for being here 
today and bringing your expertise to this topic.
    I am sure every Member of this committee can think of a 
teacher that had a positive influence on, not only their 
education, quite frankly, their life. Maybe we didn't realize 
it back in the day, but in retrospect looking back, and usually 
it was the ones that had the higher standards, the toughest 
teachers are the ones I look back with admiration today and had 
tremendous influence.
    Teachers are the most underrated yet powerful professionals 
in the entire world, is what I believe. They truly do shape 
young minds. In Pennsylvania, we have a program, the 
Commonwealth of Pennsylvania instituted a teacher in the 
workforce grant program that focuses on strength and 
collaboration between local educators and local businesses. The 
goal is to better prepare students with the skills for the in-
demand jobs, creating really pathways to opportunity.
    On the Federal side, under the current law, the Federal 
Teacher Quality Partnership grant connects local schools with 
nearby colleges and universities to create professional 
development programs for new teachers; however, there are not 
enough opportunities for established teachers to develop 
leadership and peer mentoring skills that help retain teachers 
and boost student achievement. That is why I was proud to 
introduce H.R. 3108, the Teachers Are Leaders Act.
    This bipartisan piece of legislation seeks to expand 
professional development and leadership growth opportunities 
for teachers. Now, specifically, the legislation would expand 
Teacher Quality Partnership grants by making teacher leader 
programs focused on professional development for established 
teachers eligible for funding. Programs would focus on peer 
coaching, family and community engagement, curriculum 
development, and other ways to make full use of their 
experience as educators and leaders within their communities.
    Now, if schools want to recruit/retain high-quality 
teachers, then they must treat them like the professionals that 
they are, and that means we must allow them to grow both inside 
and outside the classroom.
    Mr. White, thank you for being here today. I have a couple 
questions for you Kind of reflect a little bit on just one 
small thing that Pennsylvania was doing. Does Louisiana provide 
any State programs for established teachers who are seeking 
professional development?
    Mr. White. We do, and much of that is done through with 
Federal assistance, including Title II of the Every Student 
Succeeds Act, and a Teacher Incentive Fund grant also from the 
Federal Government. And I also wanted to say that I too am 
supportive of programs that have classroom teachers spending 
time in other industries' understanding, through internships or 
externships, what their own students as graduates will be 
experiencing in the workplace.
    Mr. Thompson. Yeah, I think those are outstanding programs 
for many--certain percentage of our students who go right into 
the marketplace and to the workplace, and the more the teachers 
understand what the skill sets are that are required, the 
higher degree of success, not just of achieving jobs, but 
growing within those businesses and industries for greater 
opportunity.
    You talk in your testimony about mentor teachers who work 
with perspective teachers as part of the State's residency 
program. Can you tell us more about how mentor teachers are 
prepared and licensed in order to ensure those teachers are 
effective in working with new colleagues?
    Mr. White. Our State has created a specific training 
program and a specific series of assessments, and then 
ultimately, a credential that mentor teachers experience. We 
certified more than a thousand and we are on our way to 2,000 
mentor teachers. That is a permanent license. It also comes 
with additional funding in the form of a stipend. But I think 
most unique is that gaining the mentor license in the State of 
Louisiana makes you 40 percent of the way through to your 
education administrator's license.
    Education preparation for people who are going to lead 
schools shouldn't just be about what type of training do they 
get; it should be about who are we recruiting. And very often 
we have not reached out to our best classroom teachers to 
provide them a bridge between the classroom and school 
leadership. And in my view, too many of our best teachers are 
saying, I want to stay in the classroom; I don't want to take a 
leadership role. There should be a leadership role that gives 
them a bridge to leadership without removing them too far from 
the classroom.
    Mr. Thompson. Thank you, Madam Chair. I yield back.
    Mrs. Davis. Thank you very much.
    Mr. Trone, are you prepared? You just happened to come up 
next, having been here earlier. Thank you.
    Mr. Trone. Yes, ma'am. Thank you to the Chairs and Ranking 
Members for holding this hearing, and thank you to our 
witnesses for being here.
    Teachers and school leaders are shaping our future every 
day. My mother was a public schoolteacher, and I know how hard 
it is for educators to work to make sure the next generation 
has an opportunity to succeed.
    By supporting our teachers, we are supporting a better 
education and stronger outcomes for our students. That is why I 
am proud to see us highlighting these issues. I am also glad 
there is a consensus in Maryland, we must do more to elevate 
teachers and school leaders to build a world-class education 
system in our State.
    The Kirwan Commission on Innovation and Excellence is 
prioritize supporting teachers as one of its five major 
recommendations, including increasing pay and diversity. But as 
we have heard today, it is critical to recruit and retain 
strong teachers. Data shows 40 percent of new teachers leave 
the class within the first 5 years. That is a crisis.
    Mr. Brosnan, reducing attrition by half would virtually 
eliminate the teacher shortages. What support could the Federal 
Government provide, in your opinion, to retain effective 
teachers?
    Mr. Brosnan. Thank you, Congressman. I feel as though some 
of the things that we have discussed in preparation in 
preservice to teaching would certainly aid in reducing the 
attrition rate, but for an immediate fix, I think that States 
and municipalities need to take the idea of pointed mentorship 
very seriously. If we rework our preparation programs and put 
other measures in to place to help the next group of teachers, 
that doesn't do much for the classrooms that are opening in 
August. And I think States and municipalities need to take 
mentorship extremely seriously.
    Mr. Trone. Any other thoughts on that one?
    Ms. McManus.
    Ms. McManus. Yes, sir. We have a mentor program. All first- 
and second-year teachers have an assigned teacher. This is a 
full-release person. Title II also supports that funding for 
these release people to actually help ensure the success of our 
teachers in the first 2 years on the job. Same with leaders. 
Principals need that same support. Principal coaches provide 
support in the first 2 years, and that system of support is 
critical.
    Mr. Trone. Thank you. I completely agree with you. We have 
a mentorship program at my business from its board of directors 
right on down through. I love mentorships.
    It was great to work with colleagues in a bipartisan basis 
to introduce the Teachers Are Leaders Act. This bill will 
expand professional development in leadership growth 
opportunities for teachers. I look forward to work with the 
committee to better support educators in the Higher Education 
Act reauthorization.
    Last thing I had was, Ms. McManus, we have discussed, the 
committee, the benefits of educating the whole child. This 
means supporting their social/emotional development, in 
addition, traditional subjects, math and science. Would 
students benefit from including social/emotional learning, 
trauma-informed care, implicit bias training for educators and 
actually all staff in schools?
    Ms. McManus. Absolutely. Educating a child is not just 
about content. I said that earlier. It is about knowing their 
story. It is about knowing the challenges they are facing when 
they walk in the door every day, and then having our leaders 
and our teachers equipped to have strategies in their tool belt 
to be able to support our diverse learners. And so all of those 
topics, all of those content areas are critical for both 
teacher prep, leader prep, and for the ongoing support we give 
our educators.
    Mr. Trone. Secretary DeVos has rolled back several 
initiatives that helps teachers better support the kids, 
including the Obama-era discipline guidance. What has the Trump 
administration done, if anything, to promote those practices?
    Ms. McManus. Me?
    Mr. Trone. Yep.
    Ms. McManus. I am not sure exactly, but what I will say is 
that as we approach discipline in our systems, there is a major 
disparity in disciplines for students of color and other 
students. Suspension rates, if you look at the data, are 
higher, especially if you look at students with 
exceptionalities that are students of color, even higher. And 
so we have got to not have one-size-fits-all approaches to 
disciplining students. We have got to make sure we are meeting 
students where they are, and having students out of school is 
not going to equal better outcomes for students.
    So I will tell you, I have seen and I always want to ask 
the question, if you have seen one student that came in with 
some challenging behaviors turn around because of the adult 
interventions, how many will it take for you to believe that is 
the most critical part of shaping students?
    Mr. Trone. Thank you. That is excellent.
    I yield back.
    Mrs. Davis. Thank you very much.
    Mr. Cline.
    Mr. Cline. Thank you, Madam Chair and the Ranking Member, 
for holding the hearing, and thank our witnesses for being 
here.
    I want to follow on Ms. McManus' comments about when it 
came to disciplining students, that one size does not fit all. 
In fact, that applies to a whole host of educational programs 
and ideas. The value of federalism in our education 
institution, when it comes to education, is critical. And my 
home State of Virginia is rich with education institutions both 
in higher ed and K-12.
    During my time in the State general assembly, I authored 
legislation that was signed into law which gave teachers in K-
12 more resources to help identify if a student may be dyslexic 
so that a referral for further evaluation could be made. This 
legislation was able to make a transformational difference in 
many students' lives by allowing them to get the assistance 
they need to flourish in their education.
    Teachers want to help, but each student is different and 
presents their individual needs in different ways. So it is 
important that teachers have the resources and preparation to 
be able to identify them and help their students. The Virginia 
General Assembly does a great job of supporting teachers so 
they can be effective, and they are able to do this because 
they know the specific needs of the State and the localities.
    Federal Government needs to be cautious that it does not 
impede on the work that States are doing to support education 
by pushing one-size-fits-all solutions when, in fact, this type 
of policy often does more harm than good.
    I also want to take a moment to thank Dr. Daire, who is 
dean of a great Virginia University, VCU, for being here today 
as a witness. VCU prepares many future educators and maintains 
high national rankings for their education programs.
    With that Madam Chair, I yield back.
    Mrs. Davis. Thank you.
    Mr. Castro.
    Mr. Castro. Thank you, Chairwoman.
    And thank you for your testimony today.
    I am a very big supporter of public schools. I went to 
public school every year, except for 5th grade when I was sent 
to Catholic school for a year. My dad was a public 
schoolteacher for at least 26 of the 31 years that he taught. 
He taught in the Edgewood Independent School District for all 
those years. And I had many great teachers that helped me 
believe in myself, but I also remember teachers that, quite 
honestly, I don't think should have been teaching.
    Let me give you a specific example. I went to middle school 
across the street from, at the time, what was at the time the 
largest housing project in the city of San Antonio, and I went 
to a multilingual school. And there was a teacher I remember 
that I had for German who on Halloween dressed up with a Nazi 
insignia on his lapel. There was a teacher that my brother had, 
who 2 or 3 days out of the week, would show movies--instead of 
doing instruction, would show movies the whole time to the 
students. There was a teacher that I had in high school that 
joked about wetbacks in a school that was probably 95 percent 
Mexican American.
    So my question to you is, for those of us that are 
supporters of public education, that want public education to 
be robust for many years to come, how do we make sure that 
teachers like that are either significantly improved or weeded 
out?
    Mr. Daire. So I think one recommendation that I believe has 
come from all of us on the panel is that we do need to get 
candidates, we need to get our students studying to be teachers 
in the classrooms earlier, and I think we need to get them in 
urban and high-needs classrooms earlier. I think we need to 
have intensive training, as you mentioned, Congressman Trone, 
in terms of implicit bias, understanding racism, understanding 
culture, understanding poverty/privilege, so that those 
individuals who really don't have the dispositions to work with 
those students can be identified earlier and maybe redirected 
to another career.
    And then for those who are staying or are receiving the 
type of training that will go along with what they are 
receiving in terms of content and pedagogy to be successful 
with all students, particularly students living in poverty and 
particularly underrepresented minority students, which is the 
concentration of where the challenges are happening.
    Mr. Castro. Anyone else?
    Mr. White. I would just add that, on the other side of that 
and maybe less inspiring, but nevertheless, due process needs 
to exist for any employee in our industry and, at the same 
time, due process need not be delayed. And there are 
circumstances across our country where justice is delayed 
because there are attitudes and occasionally actions that are 
fundamentally inappropriate, occasionally unlawful, and yet 
people are still on the rosters of public school systems on the 
payrolls, because State legislatures, school systems, and 
school boards, and occasionally labor unions, have not come 
together to address the issue candidly and expeditiously.
    Ms. McManus. We also can't shortchange the role of the 
principal in this. A culture that is created with a leader that 
also had culturally responses, education, and implicit bias and 
really believes in students, those types of behaviors would be 
addressed because they are in their classrooms regularly. They 
are able to create a culture that would not be allowed.
    Mr. Castro. Thank you.
    Of course, I graduated from high school in 1992, so I 
haven't been, you know, in a secondary school since then, and I 
certainly hope that things have changed since then. But that is 
why I asked you all the question as experts who are current in 
the field.
    So thank you all for being here.
    Mrs. Davis. Thank you.
    Ms. Omar.
    Ms. Omar. Thank you, Chairwoman.
    I was raised by many educators, and I feel a little alarmed 
about how, across the Nation, educator pay continues to erode, 
expanding the large gap between what teachers earn and what 
similar educated experienced professionals in other fields 
earn.
    School employees from coast to coast are fed up with living 
paycheck to paycheck, working two to three jobs to pay the 
bills, and struggling with work anxiety, sleep depravity, and 
being burned out. More than half, 63 percent of public school 
districts still offer a salary starting below 40 percent. 
Nearly 300 districts pay first-year teachers less than $30,000 
a year.
    So, Mr. Brosnan, do you agree that we must increase 
teachers' pay salaries to a greater incentive to the path to 
becoming a teacher?
    Mr. Brosnan. Thank you, Congresswoman. I am certainly not 
going to say no as a practicing educator. I think my reason for 
saying that I agree with you is sort of twofold. I really 
appreciate every Member of this committee and the respect that 
they have for the multiple degrees that teachers do earn, 
whether it is required or not. I think the realistic part is 
that teachers do need to have a second job if they are going to 
live in certain areas in this country and earn the salaries 
that they are being paid.
    For 15 years, I worked after school and on Saturdays. That 
is time that I could have spent looking at my own student data, 
planning more robust lessons.
    Now, it is one example, and I would like to think I planned 
some good lessons as well, but I think it really--I think the 
salary conversation highlights that we want teachers to be 
spending more time focused on their students. And if they are 
living in an area where the cost of living exceeds their salary 
and they are forced to secure a second or sometimes third job, 
that is time that is, at least intellectual and thought time, 
that they are not spending on the students they are going to 
see the following morning.
    Ms. Omar. Did you--
    Ms. McManus. I agree. I am sorry. All the nodding is 
because I agree with everyone and your statements. I am one of 
eight siblings and five of us are educators, and they tell me I 
am the one that went to the dark side of school leadership and 
they all stayed teachers. But I will tell you that, yes--and my 
father also being a 40-year educator. They all have had to do 
other things to be able to make ends meet if they--especially 
in a single-income household, and that is just--that is not 
right.
    And, yes, benefits are an attractive part of profession, 
but we need a salary that attracts people and then keeps them 
in our profession, and currently that does not exist.
    Ms. Omar. And so maybe you can help me explore what are 
some incentives that we can provide for people to enter the 
profession. We know that there are many factors that prevent 
people, especially people of color, from becoming teachers. I 
had one constituent who is a teacher tell me, no student of 
mine who lives in poverty chooses to enter a profession that 
would keep them in poverty. They operate based on logic, and 
choosing the teacher profession, no matter how important and 
valiant, is also--is almost not logical.
    And so how can we make this a logical choice for members of 
our community?
    Yeah.
    Mr. Brosnan. Our Congresswoman Hayes mentioned it earlier 
this morning that it is the only career where there is a 12-
year interview, where the student is seeing what the teacher is 
doing for 12 years and deciding whether or not it is the career 
that they want. I think particularly for our students of color 
who are in predominantly urban environments, those schools need 
to reflect the fact that this is a wonderful profession and it 
is a profession that requires excellent people in it.
    I think if we take a look at our urban education and our 
urban schools with our attrition rate of teachers and our 
attrition rate of principals and leaders as well, that has to 
be a focus for this country if we are serious about bringing in 
more teachers of color. We need to show them that the school is 
functional and that it is a good experience.
    Ms. Omar. You probably heard it all day, you know, every 
single Member, I think, on committee has been impacted by a 
wonderful teacher, if they themselves do not have educators in 
their own families. We all positively talk about them, and I 
think it pains me, and I am sure it pains everyone on this 
committee, that we have teachers living with poverty. And so I 
hope we find a solution trying to elevate their lives as much 
as they have validated our lives.
    Thank you.
    Mrs. Davis. Thank you very much.
    Ms. Schrier. Dr. Schrier.
    Ms. Schrier. Thank you for all of your testimonies. My mom 
was a public schoolteacher, and so I grew up in that world and 
know how much time she spent after school planning for the next 
day and also know that, while the benefits were great, it would 
have been nice to feel rewarded appropriately by a better 
salary. So thank you.
    A lot of the discussion today has really focused on 
kindergarten and up education. I am a pediatrician, so I look 
at the little ones and know when the real brain growth happens. 
And so early childhood education programs like school district 
provided pre-K, Head Start, child care, coop education are 
required to have educators that have certifications, 
associates, bachelor's degrees in field-specific areas like 
early childhood development. But--and this is really for Dr. 
Daire and for Mr. White.
    We know that children birth through K, even birth through 8 
learn in different ways than older children, and oftentimes the 
early childhood professionals are receiving training that is 
really better intended for older kiddos. And both of you 
mentioned focusing on early childhood education professional 
development. I wondered if you could talk about some effective 
initiatives that you believe other States and higher education 
institutions should consider adopting and Federal supports that 
might help that adoption.
    Mr. White. Thank you. I would say two things first. One, 
child care, Head Start, public pre-K, and to the degree that it 
is funded publicly, private pre-Ks, do need to begin working on 
a common definition of excellence in the early childhood 
setting, and I am not just speaking for 4-year-olds; infants 
and toddlers. And so in our State, working with the University 
of Virginia, we have developed a system, we use the class 
instrument that uses a common definition of what a great care 
environment looks like for an infant or for a toddler or a 3-
year-old. So there does need to be a common definition of what 
is good.
    And then secondly, we cannot accept the huge disparity in 
qualifications between child care and our public pre-Ks. Child 
cares care for the students, in a way, with the most 
complicated needs, our youngest children, infants. I know. I 
have got one, and they are complicated. And they need to be 
professionals. But in our State, up until 5 years ago, you only 
had to be 18 years of age. You didn't even have to have a high 
school diploma to teach a federally funded child care program. 
I don't know that is something that the Federal Government 
should get involved in. I do know that fragmentation of Federal 
funding streams hurts States' ability to create unified early 
childhood systems, which leads to the kind of backroom corners 
of our system like any system that doesn't even require a high 
school degree. Every State should change that.
    Ms. Schrier. Thank you. I appreciate that. And I also 
appreciate your calling attention to that notion of different 
standards of excellence, because as I think about schools even 
in my area, some really focus on academics, where really play 
based, in my pediatrician opinion, play based and social/
emotional experience is what you really need to get a good 
start in kindergarten.
    Did you want to comment, Dr. Daire?
    Mr. Daire. I just wanted to add that we are looking at that 
in Virginia also with some folks from UVA, and we do have a 
commission that is exploring that at the State level.
    One of the things that we are doing at VCU, you know, 
particularly as an urban-serving public research university, we 
have a child development center within our school of education. 
And one of the ways that we are looking to expand and to 
hopefully develop a model to where we can collaborate with the 
community, collaborate with the school system, and to be able 
to provide this high-quality, early childhood development, 
which has a training component for our students and be able to 
have children from some of our urban high-needs communities so 
that we can work together.
    And I think you will find that many universities across the 
country have child development centers, some are affiliated 
with their colleges and schools of education. I think there is 
some rich opportunities there for collaboration.
    Ms. Schrier. Fantastic. Thank you.
    I had another question probably also for you two, although 
anybody is welcome to opine. We talked about the importance of 
having effective teachers in the classroom, and research from 
the Wallace Foundation shows that the most important in 
ensuring that a school has great teachers who actually stay 
teachers in the classroom is effective leadership and 
principals, and you were talking about principals a moment ago.
    Despite this demonstrated importance, there is limited 
opportunities to provide aspiring principals with Federal 
support. Are there any programs or opportunities that could be 
expanded to include aspiring principals or principals already 
in place?
    Mr. White. Well, I will just say briefly I think that the 
best way to do that is to not have separate systems of teacher 
development and leader development. Effectively, they should be 
part of one continuum, and Title II both in the higher 
education environment or in the K-12 environment could support 
both.
    Ms. Schrier. Thank you.
    Any other comments? No.
    Thank you.
    Mr. Daire. I was going to say the same thing. So I think 
within TQP, I think there is an opportunity there to really 
support principal residency programs.
    Ms. Schrier. Fantastic. Thank you all very much. Appreciate 
it.
    Mrs. Davis. Thank you very much.
    And I think we have basically come to almost closing the 
hearing, but I wanted to also ask a question. I am going to 
give myself five minutes, and then we will sum up. And thank 
you very much for being here and for all of your time and 
expertise.
    You know, what we know--and we are obviously here wanting 
to understand the Federal role. And to one degree or another, 
sometimes, you know, people question whether there should be a 
Federal role, that the local and State jurisdictions have so 
much more investment on many levels and certainly in terms of 
knowing best the schools, the communities, et cetera. But I did 
want to talk about Title II and ask you to help us out with 
that at this point again.
    You have spoken to many, many different issues, and we are 
greatly appreciative of that, but could you--and I will start 
with Dr. Daire--help us to sort of flush out what is it, as we 
reauthorize, that you would really like Title II to represent? 
It is sort of the Federal breather, in many ways, because that 
is the one place that the focus on teacher preparation and 
certainly on school leadership exists.
    So what should that look like, and specifically in terms of 
the reporting requirements, what kind of data should be 
collected? What do you think is important that we can then 
build on and know that we have arrived, partly arrived, or 
dismally deficient? What would you like to see, Dr. Daire, and 
we will ask everybody? And you can opine on should there be a 
strong Federal role or not.
    Mr. Daire. Sorry. I do think there needs to be a strong 
Federal role. Almost all States are having a teacher shortage. 
We can look at the data in terms of how the U.S. is performing 
compared to other countries on various educational matrices, 
and we know that we are not succeeding in educating all 
students. We have to do a better job of educating students at 
the bottom 50 percent socioeconomic level, poor students in 
urban and rural areas, and underrepresented minority students.
    So I do think that the Federal Government really does need 
to take a role, particularly even when we look at STEM and the 
need for more folks in STEM professions to replace individuals 
who are in national security. So I think it is a critically 
important decision. I think we need to expand TQP. I think we 
need to bring it back to the level of funding when it was $300 
million, and I think it is going to be important to make sure 
that we have good data reporting on job placement, retention, 
and student growth on programs that supported by TQP so that we 
can have those measurable outcomes to support the program.
    Mrs. Davis. Thank you.
    And, Mr. White, I know you expressed earlier that you 
didn't think Title II was as effective or as it can be. What 
would you change?
    Mr. White. I would do two things. First, I would make the 
funding an attempt to catalyze change at a systems level rather 
than simply at a program or institutional level. Right now, it 
goes to fund individual partnerships. It doesn't look at a 
whole system. States and the higher ed and K-12 environment 
manage the whole system. States should play a role in the 
formulation of that plan.
    And secondly, the data required are both cumbersome but 
also just obscure. The number of IHEs for every K-12 student, 
for example, not a data point that drives any change. You 
should be demanding simple, outcomes-oriented results of 
comprehensive improvement plans, and right now, Title II does 
not do either thing.
    Mrs. Davis. Thank you.
    Ms. McManus?
    Ms. McManus. I definitely think Federal Government should 
play a role at the policy level, but that the voice of local 
teachers and leaders has got to stay at the forefront of those 
decisions. Title II has been instrumental in our district in 
supporting teacher development, in supporting leader 
development, and we have explained that it is a continuum. It 
is both at the preservice level and on the job.
    I think, when it comes to professional development, which 
is what Title II funds so greatly, you have to actually first 
see the implementation. Implementation after you have learned 
something new takes time and takes support. So the roles that 
are in our schools to provide that regular support to make sure 
that those newly learned skills actually come to fruition in 
the classroom, all of that takes funding, and then you can 
measure what were the outcomes of that on student outcomes.
    So I think we definitely have to hold folks accountable to 
these dollars, but I also think we need to allow local decision 
makers to have input, but also have some type of continuity 
across States.
    Mrs. Davis. Thank you.
    Mr. Brosnan.
    Mr. Brosnan. Thank you. I would agree with my colleague, 
Ms. McManus, that I think any funding from the Federal 
Government in the role of the Federal Government, especially in 
terms of Title II, it opens the door for locals to consider the 
type of timely and important professional development that 
their teachers need.
    Mrs. Davis. Thank you.
    Thank you very much. Actually, it was good to hear that 
there are ways to improve it, not to get rid of it, if I am 
hearing everybody correctly. Thank you very much.
    I wanted to move now quickly to a little bit of boilerplate 
here, and also, I want to remind my colleagues that pursuant to 
committee practice, materials for submission for the hearing 
record must be submitted to the Committee Clerk within fourteen 
days following the last day of the hearing, preferably in 
Microsoft Word format. The materials submitted must address the 
subject matter of the hearing and only a Member of the 
committee or an invited witness may submit materials for 
inclusion in the hearing record. Documents are limited to 50 
pages each. Documents longer than 50 pages will be incorporated 
into the record by an internet link that you must provide to 
the Committee Clerk within the required time frame. Please 
recognize that years from now, that link may no longer work.
    I wanted to submit, with unanimous consent, the RAND report 
on principal pipelines, for the record, which I believe is a 
very important study that Ms. McManus particularly spoke to.

    [The information follows:]

    Principal Pipelines: https://www.rand.org/content/dam/rand/
pubs/research--reports/RR2600/RR2666/RAND--RR2666.pdf

    Mrs. Davis. I certainly want to thank all of our witnesses 
for their participation. We know how invaluable your comments 
have been today, the work that you have done, the experience 
that you have had over the years and how you embody that to 
present to us today.
    The hearing record will be held open for four days in order 
to receive any of your responses. If you would like to 
elaborate on anything that you said today, particularly the 
role of the Federal Government in Title II which helps us with 
the reauthorization, we would certainly be very supportive of 
that.
    And I want to remind my colleagues that pursuant to 
committee practice, witness questions for the hearing record 
must be submitted to the Majority Committee Staff or Committee 
Clerk within seven days. The questions submitted must address 
the subject matter of the hearing.
    And with that, I want to recognize the distinguished 
Ranking Member Allen for his closing statement.
    Mr. Allen. Well, realizing that you have been here almost a 
little over 3 hours, thank you. Appreciate you taking this time 
to come and share with us. Thank you so much for what you do 
for this country and for young people. It is critically 
important that we figure out a way to deal with these issues.
    One of the things that I was--it is a couple of hearings 
ago that we put--we put a graph on that board behind you, where 
the cost of educating young people has doubled since the 1990s, 
but teachers' salaries have been flat. So something's not right 
in the way we are doing things out there, so I believe in 
bottom up. I believe you can fix it. So please, please tell us 
what you need from us to fix it.
    And, you know, going to Title II, you know, if this program 
is going to continue, we need to ensure that States have the 
opportunity to pursue a system of improvements process rather 
than continuing a program that has had very limited impact, and 
we got to change that.
    Thank you so much, and I yield back.
    Mrs. Davis. Thank you.
    And I wanted to just state as well that as we work to 
reauthorize HEA, we want to be sure that we are educating our 
students, of course, for success, preparing and retaining the 
highest quality teacher workforce, possibly. We know that is a 
team effort. It requires high-quality teacher preparation 
programs, adequate support from well-prepared school leaders, 
and Federal support to pay off student loans as well.
    I certainly look forward to working with my colleagues to 
ensure that our educators have the support and the resources 
necessary to lead successful, fulfilling careers, and empower 
our students to reach their full potential.
    And with that, if there is no further business, the meeting 
is adjourned. Thank you all very much.
    [Additional submissions for the record by Mr. Sablan 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

[Questions for the record and their responses follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 1:05 p.m., the subcommittees adjourned.]

                                 [all]
</pre></body></html>
